<html>
<title> - CHINA'S NATIONAL AND LOCAL REGULATIONS ON RELIGION: RECENT DEVELOPMENTS IN LEGISLATION AND IMPLEMENTATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               CHINA'S NATIONAL AND LOCAL REGULATIONS ON
    RELIGION: RECENT DEVELOPMENTS IN LEGISLATION AND IMPLEMENTATION

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 20, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
31-412                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON SMITH, Oregon                 FRANK R. WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  SANDER LEVIN, Michigan
CARL LEVIN, Michigan                 MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         SHERROD BROWN, Ohio
BYRON DORGAN, North Dakota           MICHAEL M. HONDA, California     


                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
               FRANKLIN L. LAVIN, Department of Commerce
                CHRISTOPHER R. HILL, Department of State
                BARRY F. LOWENKRON, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Carlson, Eric R., attorney, Covington & Burling, LLP, Washington, 
  DC, and Fellow of the International Center for Law and Religion 
  Studies, J. Reuben Clark Law School, Brigham Young University, 
  Provo, UT......................................................     2
Fu, Xiqiu ``Bob,'' President, China Aid Association, Midland, TX.     5
Tong, James W., associate professor of comparative politics, 
  University of California-Los Angeles, Los Angeles, CA..........     9

                                APPENDIX
                          Prepared Statements

Carlson, Eric, R.................................................    26
Fu, Xiqiu ``Bob''................................................    34
Tong, James W....................................................    40


CHINA'S NATIONAL AND LOCAL REGULATIONS ON RELIGION: RECENT DEVELOPMENTS 
                   IN LEGISLATION AND IMPLEMENTATION

                              ----------                              


                       MONDAY, NOVEMBER 20, 2006

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The Roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2200, Rayburn House Office Building, David Dorman 
(Senate Staff Director) presiding.
    Also present: John Foarde, House Staff Director; Kara 
Abramson, Senior Counsel; Lawrence Liu, Counsel; Mark S. 
Milosch, Special Advisor; Diana Wang, Senior Research 
Associate; and Susan O'Sullivan, Office of Hon. Barry 
Lowenkron, Assistant Secretary of State for Democracy, Human 
Rights, and Labor.
    Mr. Dorman. Let's get started. Today's Congressional-
Executive Commission on China staff-led roundtable will address 
China's national and local regulations on religion, and their 
impact on freedom of religion in China.
    On behalf of our Chairman, Senator Chuck Hagel, and our Co-
Chairman, Representative Jim Leach, I would like to welcome all 
of you to our roundtable today, and in particular, thank our 
very distinguished panelists who are with us today to share 
their knowledge, experience, and wisdom on a very complex set 
of issues.
    As has been past practice, I will begin the roundtable by 
making a short statement on behalf of the Commission. Following 
that, I will introduce each of our witnesses and give each 10 
minutes to make an opening statement.
    Once each of the witnesses has made a 10-minute statement, 
we will begin a question and answer period. Each person on the 
dais will have five minutes to ask a question of one or all the 
witnesses and hear an answer, and we will continue asking 
questions and hearing answers until we reach 3:30, or run out 
of questions.
    To date, we have never run out of questions during a 
roundtable, so I think we will be all right. In fact, we have 
often found it necessary, unfortunately, to end roundtables 
before all the questions have been asked.
    So if our witnesses would take their seats, we will get 
started.
    I noticed that Mr. Harry Wu is in the audience. A special 
welcome to you, Harry, a real champion for human rights in 
China. We are glad that you were able to join us today. Thanks. 
And thanks for all your good work.
    On March 1, 2005, the State Council's Regulation on 
Religious Affairs entered into force, representing the first 
comprehensive national regulation devoted to religious issues. 
Since then, some provincial level governments in China have 
amended or issued new regulations on religion, while others 
continue to use older regulations.
    The Regulation on Religious Affairs and related local 
regulations introduced some transparency to China's system of 
religious regulation, but inconsistencies among regulations and 
ambiguities within them persist.
    Although Chinese Government officials and some scholars 
have stated that the Regulation on Religious Affairs represents 
a paradigm shift by limiting state control over religion, in 
the past year the Commission and other human rights groups have 
reported continued government repression of some unregistered 
groups and tight controls over registered communities.
    This roundtable will examine the interplay between the 
National Regulation on Religious Affairs and local regulations, 
and discuss the practical impact of such regulations on freedom 
of religion in China.
    With that, as is standard practice, we will introduce the 
witnesses in alphabetical order, beginning with Mr. Eric R. 
Carlson. Mr. Carlson is an attorney with Covington & Burling 
LLP in Washington. He is the author of ``China's New Religious 
Regulations: A Small Step, Not a Great Leap, Forward'' and co-
author of the book ``Religious Freedom on China: Policy, 
Administration, and Regulation.'' Mr. Carlson also serves as a 
Fellow of the International Center for Law and Religion Studies 
at the J. Reuben Clark Law School at Brigham Young University.
    Mr. Carlson, you have 10 minutes for an opening statement. 
I would ask that you would speak into the microphone so we can 
get a clear recording for the record. Thank you.

  STATEMENT OF ERIC R. CARLSON, ATTORNEY, COVINGTON & BURLING 
LLP, WASHINGTON, DC, AND FELLOW OF THE INTERNATIONAL CENTER FOR 
 LAW AND RELIGION STUDIES, J. REUBEN CLARK LAW SCHOOL, BRIGHAM 
                  YOUNG UNIVERSITY, PROVO, UT

    Mr. Carlson. Thank you very much.
    Good afternoon.
    My name is Eric Carlson, and I am an attorney with 
Covington & Burling LLP. These remarks reflect my personal 
viewpoints and not those of the firm or any of its clients.
    As a lawyer by training and trade, I hope to offer a few 
thoughts from a legal perspective on China's national and 
regional regulations, with the full realization that the 
situation on the ground does not always comport with legal 
requirements.
    In late 2004, China's State Council indicated that it would 
issue a new Regulation on Religious Affairs, or RRA, that would 
be a paradigm shift in religion administration.
    At the time, many observers, including myself, expressed 
cautious optimism that, while the RRA did not represent a 
fundamental reordering of state supervision over religion, it 
might result in a small step toward greater religious freedom 
in China.
    The RRA omitted several restrictions contained in prior 
national and regional regulations and left several provisions 
vague, possibly indicating a gradual shift toward more 
flexibility in religious administration, and perhaps allowing 
space for unregistered groups to flourish. Further, the RRA 
provided additional legal protections in several areas.
    In the two years since the announcement of the RRA, this 
optimism has been tempered by actual events. The RRA offered 
few unrestricted rights. Most contained qualifications, 
provisos, and restrictions. The omissions that were thought 
perhaps to signal a new openness did not grant any new rights, 
and religious groups are not fundamentally on more solid legal 
ground than before.
    The vagueness in the RRA cuts both ways, allowing for 
inconsistent interpretation and the possibility of abuse of 
discretion by less sophisticated local officials. Scholars 
cautioned that much would depend on implementing guidelines 
issued subsequent to the RRA. The practical implementation of 
the RRA indicates that the rights set forth in the RRA could be 
viewed as a ceiling rather than a floor.
    Since the promulgation of the RRA, one national-level 
regulation and eight regional regulations affecting religious 
administration have been promulgated. While the overall scheme 
of state supervision over religion remains constant, 
inconsistencies among these regulations raise practical 
questions for both registered and unregistered religious 
groups.
    Six weeks after the RRA took effect, the State 
Administration for Religious Affairs [SARA] promulgated the 
Measures on the Examination, Approval, and Registration of 
Venues for Religious Activity [Measures]. Similar to the RRA, 
the Measures do not provide any new rights per se, but do 
represent a more sophisticated effort to give clarity to the 
registration process. Specific procedures give both religious 
organizations and bureaucrats a clear process to follow.
    The Measures also provide for decentralized decisionmaking, 
moving approval down to provincial and lower levels, which then 
report their decisions to SARA. While this decentralization may 
result in faster decisionmaking, it could also be prone to 
abuse by provincial and lower level officials who are often 
less sophisticated than their national counterparts.
    Article 2 of the Measures includes ``other fixed venues for 
religious activities'' in the definition of permitted religious 
venues, rather than limiting religious venues to those of the 
five traditional religions. The term ``religious groups'' is 
not defined in the Measures.
    Article 5 of the Measures requires, among other things, a 
list of the members of the preparatory committee, which is 
better than previous rules requiring a list of all members, but 
still reflects a seeming mistrust of religion.
    Article 11 clarifies that previously registered venues need 
not apply for registration, and Article 15 clearly repeals the 
supplemental registration regulations promulgated by SARA in 
1994. These clarifying provisions are helpful in giving more 
legal certainty to religious groups.
    The largest problem with the Measures, though, is that no 
clear approval standard exists. Article 6 requires religious 
cadres to ``solicit'' the opinions of local leaders.
    The question arises: do these local leaders exercise a veto 
over approval of religious venues? If not, how much weight is 
given to their opinions? If an application is denied, can it be 
appealed to the provincial religious affairs bureau [RAB] or to 
SARA? The Measures do provide additional clarity in the 
registration procedures, but like many of the post-RRA regional 
regulations, leave many unanswered questions.
    Despite the efforts of the RRA and the Measures to 
establish clear standards for religious administration, they 
have not systemized the application of laws in ways that some 
scholars had envisioned.
    The patchwork of municipal, provincial, and national 
regulations remains, and from a legal perspective the events 
following the promulgation of the RRA pose conundrums for 
religious groups and their leaders.
    China's Legislation Law indicates that national-level 
regulations have a ``higher'' legal authority than provincial 
or local regulations. The Legislation Law provides that, where 
a national-level regulation has come into force, contravening 
provisions and regional regulations are invalid and the issuing 
regional body ``shall amend or repeal such provision on a 
timely basis.'' But the Legislation Law also provides that a 
regional regulation can be used to ``implement a national law 
or administrative regulation in light of the actual situation 
of the jurisdiction.''
    From a legal point of view; then, the drafters of the post-
RRA regional regulations seem to believe either: (1) that the 
preexisting provisions of provincial regulations do not 
conflict with the RRA and therefore do not need to be changed 
or (2) that the provincial regulations do in fact conflict with 
the RRA, but these regional regulations serve to implement 
religious administration in light of the actual situation in 
that province.
    For the provinces that have not amended their regulations 
after the RRA, it could be either because, first, they believe 
that the RRA implicitly repealed all provincial-level 
regulations on religious administration and thus there is no 
need to repeal the prior regulations; or, second, that they are 
in the process of drafting an amended or new regulation.
    While these preemption issues pose interesting theoretical 
legal issues, they also have real consequences for religious 
believers. Because religious organizations exist and operate in 
towns, counties, and provinces, what set of laws should 
religious believers and their leaders follow?
    If a provincial regulation conflicts with the RRA, which 
provisions should a religious body follow? If the RRA provides 
rights that a provincial or local regulation does not, can a 
religious body successfully assert these rights?
    What significance does the absence of new or amended 
regulations in other provinces have? Does the RRA apply in 
place of preexisting provincial regulations as a supplement, or 
neither? For 
instance, should a religious body in, say, Xinjiang, assume 
that the RRA is applicable to the province, the preexisting 
provincial-level regulation is applicable, or parts of both? If 
the venue registration provision of the regional regulations is 
not the same as the relevant provision of the Measures, which 
procedures should a religious group follow?
    Can religious groups avail themselves of rights contained 
in regional regulations and not in the RRA, and vice versa? Is 
a group subject to penalties contained in the RRA, but not in 
regional regulations?
    If regional cadres applied a penalty that was more 
restrictive than that provided for under the RRA, would any 
administrative appeal be possible under Article 46 of the RRA? 
If so, to which body would this appeal be presented? Do 
unregistered groups fit into this legislative morass?
    Some provinces do recognize groups outside the traditional 
five authorized religions. Can one of these groups leverage 
registration in one province to obtain registration in another?
    Do religious groups, which are essentially unauthorized in 
provinces or post-RRA regulations, limit the definition of 
religion to the traditional five? As you can see, there are a 
number of interesting and very practical questions for 
religious bodies.
    With so many variations in the eight regional regulations 
that have been issued subsequent to the RRA, it is difficult to 
draw broad conclusions on these different regulations. 
Nevertheless, a few trends emerge.
    First, no regional regulation significantly curtails 
religious freedom further, but also no provincial regulation 
attempts to expand significantly the scope of protections 
beyond that of the RRA.
    In this regard, the post-RRA regional regulations can be 
seen as a codification and entrenchment of religious policies 
rather than a significant advance past the basic policies and 
principles enshrined in the RRA.
    Second, several provinces restate the traditional five 
religions in the definition of religious organizations, but 
also add another category that, in the end, could be 
potentially used in the long term to register groups outside 
the traditional five.
    Third, several provinces permit religious observance within 
the home, but with various limits, such as limiting observance 
to only ``normal'' religious activities--still undefined--or so 
long as the 
observance does not influence the ``normal lives'' of others, 
also undefined.
    Fourth, provisions requiring annual inspections have been 
eliminated. Fifth, legal liability provisions in many regional 
regulations parallel the relevant RRA provisions. Sixth, 
several new regulations provide incremental improvements to 
existing regulations.
    All the previous analysis applies to the five traditional 
belief systems long recognized in China, that is Buddhism, 
Catholicism, Daoism, Islam, and Protestantism.
    Groups and belief systems outside these five remain in an 
uncertain position. Some groups have received tacit consent 
from the government to carry on some sort of religious 
observance, despite having no legal existence or personal 
rights.
    Some groups have attempted to register as religious groups 
or associate groups, but have not been successful. The 
religious affairs authorities have shown some willingness to 
accommodate these groups outside the traditional five, but 
there are theoretical and practical problems related to the 
patriotic religious associations that traditionally have served 
as the supervising authority over religious groups.
    At least five possible scenarios have arisen for dealing 
with these new belief systems:
    Option 1: fit the religious group into an existing 
patriotic religious association.
    Option 2: establish a new patriotic religious association 
for the new group.
    Option 3: register the new group as a religious group 
directly with SARA outside the context of any patriotic 
religious association.
    Option 4: register as a social organization but not as a 
religion.
    Option 5: continue with the status quo.
    How groups outside the traditional five are integrated in 
China's system of religious administration may be indicative of 
the future of religious freedom in China.
    In conclusion, as indicated above, this analysis has been 
focused somewhat narrowly on the legal structures affecting 
religious administration in China. The basic policies of 
continued state supervision over religion, with the marginal 
improvements that were outlined in the RRA, have not been 
altered by subsequent national or regional regulations.
    Conflicts between provisions in the RRA and regional 
regulations leave religious groups in a state of legal and 
practical uncertainty. Furthermore, the system of national and 
regional regulations does not address religious groups that are 
not firmly recognized or registered by the government.
    China's religious and administrative policies and laws must 
make additional efforts to resolve these questions. While a 
call for unfettered religious freedom will likely go unheeded, 
it would be a step in the right direction for the Chinese 
Government to enact laws that comply with international 
standards that provide basic rights for all religious believers 
and groups.
    China's WTO accession and growing interactions with other 
countries amplify the need for China to hasten its transition 
from a rule-by-law to a rule-of-law nation, and the need for 
all of its laws, including those governing religious freedoms, 
to provide clarity, transparency, and predictability.
    Thank you.
    [The prepared statement of Mr. Carlson appears in the 
Appendix.]
    Mr. Dorman. Mr. Carlson, thank you very much.
    Next, I would like to introduce Pastor Bob Fu, who is 
president of the China Aid Association in Midland, TX.
    Pastor Fu was born and raised in mainland China. As a house 
church pastor in Beijing and English lecturer at the Beijing 
Administrative College and Beijing Party School, he was 
arrested in 1996, along with his wife, as an illegal 
evangelist. After his release, Mr. Fu escaped to Hong Kong and 
came to the United States in 1997.
    Mr. Fu is presently a Ph.D. candidate at Westminster 
Theological Seminary in Philadelphia, and is a visiting 
professor in religion and philosophy at Oklahoma Wesleyan 
University. In addition, he is the Editor-in-Chief of the China 
Law and Religion Monitor and the Religious Freedom in China Web 
site. He has served as a guest editor of China Law and 
Government and has written articles on religion and pubic 
security in China, and religious freedom and the rule of law.
    On a personal note, we are always pleased when we meet new 
contacts who bring additional points of reference on issues as 
complex as this one, and Professor Tong and Mr. Carlson are new 
and much appreciated contacts for the Commission.
    But Pastor Bob Fu is not. He has testified here before and 
is a good friend of the Commission. We, over the past couple of 
years, have become very aware of his work and his selfless 
dedication to religious freedom in China. So Pastor Fu, I would 
like to thank you for your important work.
    Pastor Fu, you have 10 minutes for an opening statement. 
Thank you.

      STATEMENT OF XIQIU ``BOB'' FU, PRESIDENT, CHINA AID 
                    ASSOCIATION, MIDLAND, TX

    Mr. Fu. Thank you very much.
    Before the promulgation of the national RRA, the various 
provincial RRAs were very comprehensive regional regulations, 
basically embracing all aspects of religious organizations, 
religious faculty, religious activities sites, religious 
publications, religious activities or external affairs, 
religious properties, legal liabilities, et cetera.
    Judging from a comparative observation of the textual 
framework and content, my testimony will argue that the 
national RRA, in its six-year history of research, 
investigation, and promulgation, has absorbed in its 
legislative format and content certain religious legislation 
and enforcement provisions taken from various provinces and 
reached legislative definitions with a higher level of 
generalization and greater directness.
    The following is a selective analysis of the emphasis of 
the religious administration legislation in China, based on 
examples of changes in the content of the RRA provisions of 
Beijing and Shanghai municipalities and Zhejiang province 
before and after the amendments.
    So I will do a comparison. First, with respect to changes 
in the Beijing RRA before and after the amendments. I would 
particularly highlight the comprehensive inspection process in 
the Beijing regulation. Following the text of Article 18 of the 
national RRA, the Beijing RRA amended Article 20 to read: 
``Religious activities sites shall establish sound 
administrative organizations and regulations and accept the 
guidance, supervision, and inspection of the Administrative 
Department of Religious Affairs and other departments concerned 
with the People's local district or county government.''
    Although such wording as ``annual inspections'' have 
disappeared, the departments with the authority over 
``guidance, 
supervision, and inspection'' of religious activities sites 
have been expanded from ``Administration of Religious Affairs'' 
to all ``departments concerned'' in order to implement 
integrated supervision and control by the public security, 
state security, industrial and commercial, urban construction, 
and other government departments. So this is one of the 
changes.
    And pursuant to Article 22 of the national RRA, Article 26 
of the Beijing RRA has been amended to read as follows: Clause 
1, ``Anyone who intends to organize a large-scale religious 
event that crosses provincial, autonomous regions, or directly 
administered municipality boundaries and exceeds the capacity 
of religious activities sites, or if it intends to hold a 
large-scale religious event outside of the religious activity 
site, shall undergo application and approval procedures, 
according to the State Council ``Regulation on Religious 
Affairs.'' Clause 2 says, ``Organizers of other types of large-
scale religious events shall obtain consent from the religious 
group of the municipality and first report to the religious 
affairs department of the People's Government of the district 
or county in which the religious event is to be held. The 
Religious Affairs Department and other departments concerned 
with the People's government of the district or county in which 
the religious event is to be held shall, in accordance with 
their respective official responsibilities, provide management 
as needed.''
    This type of amendment actually requires not only that 
large-scale religious events crossing provincial boundaries 
obtain approval from the provincial Administration of Religious 
Affairs--the County Administration of Religious Affairs has 
lost its authority of approval in this case--but also the local 
Administration of Religious Affairs, the Public Security 
Bureau, and even the State Security Bureau will coordinate to 
provide supervision. As a result, this arrangement actually has 
strengthened control over large-scale religious events.
    In Beijing, I know there is a very large house church that 
actually wants to register. The congregation, after debate and 
making a resolution saying they wanted to register, and after 
six or eight months of filing all the papers, and processing, 
instead of being registered--they submitted the pastor's name, 
the names of the elders, their accounting process--their pastor 
was interrogated and their elders were taken away and also 
interrogated. So, that happened last Christmas as the result of 
these changes.
    I also want to emphasize the changes in the Zhejiang 
provincial RRA, before and after the amendments, because many 
things happened, and are happening now, in Zhejiang on these 
religious persecution events, so I want to analyze the Zhejiang 
amendment.
    Let me emphasize in the case of the new Zhejiang RRA, 
provisions governing the control of and on the registration 
process for religious sites. The previous Zhejiang RRA passed 
on December 11, 1997, and stipulated a clause on ``abnormal 
religious activity,'' which was not found in the previous 
Beijing and Shanghai RRAs, to regulate cross-regional religious 
activities. Therefore, I argue that Article 22, Clause 1 of the 
national RRA, originates from Article 32 of the previous 
Zhejiang RRA.
    Article 38 of the current amended Zhejiang RRA inherits the 
original legislative principle of the clause on so-called 
``abnormal'' religious activity and sets down a more formal 
procedural definition modeled on the formal legislative 
language of Article 22, Clause 1 of the national RRA.
    The regulation has four conditions for holding these types 
of activities. Simultaneously, in accordance with the 
requirement of Article 2 of the national RRA, adding Article 
38, Clause 3: ``Religious groups or religious activity sites 
holding an abnormal religious activity shall adopt effective 
measures to prevent unexpected emergencies. The People's 
Government in a rural or urban township in the location where 
the activity takes place, and departments concerned with the 
People's Government at the county level and above shall 
implement the necessary management techniques, according to 
their respective duties and responsibilities, to guarantee the 
safe and orderly conduct of the abnormal religious 
activities.''
    So as a result of these restrictions, the last chapter 
under ``Legal Liabilities,'' the amended Zhejiang RRA describes 
abnormal religious activities in further detail, adding two new 
types of religious activities.
    For example, those ``presided over by non-religious 
personnel'' and ``unauthorized cross-regional'' that are 
included within the range of activities potentially liable to 
administrative penalty. Article 46 is also stipulated according 
to the principle of Article 43, Clause 1 of the national RRA.
    So in the RRA of Zhejiang province, it first proposes the 
clause of imposing an administrative penalty on so-called 
``illegal religious buildings.''
    It actually means to forcibly demolish unauthorized meeting 
places. I think as a result of that, in Zhejiang province 
alone, more unregistered religious buildings were destroyed in 
the past year than in all other provinces combined.
    The latest one that I know of occurred on July 29. Several 
thousand military policemen, hired by government workers, 
destroyed a building, and 60 laborers and pastors were arrested 
and beaten. Six senior leaders of that church are still being 
held and are facing trial, probably next month.
    At this point, I want to recognize some of the 
distinguished Chinese human rights lawyers who are sitting in 
the audience today that we invited to come here. They are some 
of the legal representatives for these six pastors in Zhejiang.
    Among them are Mr. Li Jianqiang, who is in the audience 
today, who is the legal representative for one of the six 
pastors. Also, Mr. Zan Aizong, who is a journalist who lost his 
job for just reporting about this event. So we are very glad 
they are here.
    Also, Mr. Li Jingsong, and Mr. Li Subin, who are the two 
attorneys for the imprisoned blind activist, Mr. Chen 
Guangcheng, are also here today.
    Now, a comment about the local RRA changes in Shanghai. Let 
me finish this quickly. I want to emphasize that in the 
regulation on publishing religious materials in Shanghai, that 
is, the government amendment, before the promulgation of the 
previous Beijing RRA, the revised ``Regulations Governing 
Printing'' and ``Regulations Governing Publication'' were 
promulgated and took effect.
    The new ``Regulations Governing Printing'' specifically 
prescribes that internal religious publications must undergo a 
dual review and approval procedure to obtain authorization from 
both the Administration of Religious Affairs at the provincial 
level and be issued a ``print permit'' from the Administration 
of Press and Publications at the provincial level, while other 
types of internal publications need only be issued a ``print 
permit'' from the Administration of Press and Publications only 
at the provincial level.
    The design of the ``authorization by provincial level 
departments'' is intended to have a psychological effect in 
that regulation by a higher authority is a more intense level 
of public policy implementation.
    This type of legal procedural discrimination is without 
explanation or plausible rationale; it violates the 
constitutional principle of equal treatment, at the same time 
violating the rights of equality, religious freedom, and 
freedom of the press. So it is based precisely on the unfair 
treatment of religious publications.
    The new Regulations Governing Publications adds a new 
Chapter 5 called ``Importation of Publications: Establishment 
of a Special Operations and Review System on Imported 
Publications.''
    The previous Beijing RRA had a special chapter on religious 

publications that categorizes them by three criteria: ``open 
publications,'' ``internal material publications,'' and 
``overseas publications,'' with emphasis on regulating, 
publishing, printing, and 
distributing of religious ``internal publications'' and 
``overseas publications.'' This chapter has been preserved 
intact in the new RRA.
    Based on these new regulations, we see a number of cases 
that have happened since last year, with the suppression and 
arrest of those who are either house church leaders, or 
Buddhist workers who publish and distribute their internal 
religious literature, including Bibles and Buddhist literature.
    Of course, we heard this from Pastor Cai Zhuohua's case 
last year, and then to the Anhui Wang Zaiqing case, who was 
sentenced to four years, and was fined for 100,000 yuan because 
of the publication of Bibles and other Christian literature.
    In April of this year, a Buddhist monk, Mr. Lei Daying, was 
sentenced to four years in Beijing by the Beijing Intermediate 
Court for publishing and distributing Buddhist literature. So, 
that is a direct result of these new restrictions.
    In conclusion, from analyzing the content changes in legal 
clauses among the RRAs of Beijing, Zhejiang, and Shanghai 
before and after the amendments, I would argue that the Chinese 
Government, at the central and local levels, has shifted its 
regulatory emphasis on religious activities from the singular 
target of religious activities sites to more comprehensive 
regulation of religious undertakings. The more comprehensive 
regulatory system includes the new system of integrated 
regulation of religious activities; the qualification system 
for religious faculty; the review and approval 
system of establishing, expanding, relocating, and constructing 
religious activity sites; the review and approval of religious 
publications, especially internal material publications; the 
permission mechanisms for cross-regional religious activities; 
the system of 
integrated regulation of religious activity sites, the system 
of application, approval, and preventive measures regarding 
large-scale 
religious activities, and so on. All these changes result in 
more comprehensive, rigid, and diverse set of regulatory 
measures.
    Although this regulation is merely an ``administrative and 
regional law,'' the promulgation of the unconstitutional 
national RRA and the amendment or establishment of regional 
RRAs symbolize the formal establishment of the system of 
``legally regulating religion'' because Chinese citizens do not 
enjoy freedom of assembly, the judicial system is not 
independent, the people's congresses do not have adequate 
representation, and there is no judicial review of 
constitutionality or system for private citizens to litigate 
questions of constitutionality.
    Of course, given what international law mandates and how it 
defines religious freedom, including not only the freedom of 
religious belief but also the manifestation of such belief both 
in private and in public, it is certainly a violation of 
international law in that sense.
    Thank you very much.
    [The prepared statement of Mr. Fu appears in the Appendix.]
    Mr. Dorman. Pastor Fu, thank you very much. I would like to 
second what Pastor Fu said about the Chinese human rights 
defenders who are visiting here today. We are, of course, 
honored that they were able to join us. These are men of 
tremendous courage and commitment and we would like to publicly 
thank them for their tremendous work. So, thank you.
    Third, testifying today is Professor James W. Tong. 
Professor Tong is Associate Professor of Comparative Politics 
at the University of California-Los Angeles, and editor of the 
journal Chinese Law and Government.
    Professor Tong served as the Vice Chairman of UCLA's 
Department of Political Science and its Director of the Center 
for East Asian Studies from 1996 to 2002. His publications 
include a book on peasant revolts from the 14th to the 17th 
century in China, three journal articles on the Falun Gong, and 
articles on the 1989 Democracy Movement in Beijing.
    In addition, he has edited or co-edited three journal 
issues on central and provincial religious policy documents in 
China. He has served as a World Bank consultant on fiscal 
policy in China, briefed the U.S. Commission on International 
Religious Freedom on religious policy in China, and hosted two 
visits of delegations from China's State Administration for 
Religious Affairs to UCLA.
    Professor Tong received his Ph.D. from the University of 
Michigan, and M.A. from the University of Washington, and has 
held teaching positions at Michigan State University and the 
California Institute of Technology.
    Thank you, Professor Tong, very much for joining us today. 
You have 10 minutes for an opening statement. Thank you.

STATEMENT OF JAMES W. TONG, ASSOCIATE PROFESSOR OF COMPARATIVE 
POLITICS, UNIVERSITY OF CALIFORNIA-LOS ANGELES, EDITOR, CHINESE 
              LAW AND GOVERNMENT, LOS ANGELES, CA

    Mr. Tong. Thanks for inviting me.
    Let me begin with the observation that religion in China is 
managed religion. It has a Religious Affairs Bureau at the 
national, provincial, city, and county levels.
    Religious organizations and religious venues need to be 
registered and can be de-registered. Schools of religion must 
meet the approval of the state. The state claims the right to 
order religious organizations to remove the administering 
officials of religious organizations, and also religious 
venues. Foreigners cannot proselytize, and also there cannot be 
all-male religious congregations in the Catholic Church.
    It is also the case that, since at least March 1982, a 
number of laws, and also Party documents at both the national 
and also provincial levels, have granted religious 
organizations greater autonomy in protecting religious freedom 
at both the national and local levels.
    At the local level, there are 55 provincial and municipal 
regulations that have been promulgated since March 1982. I see 
the significance of the national Regulation of Religious 
Affairs that was promulgated on November 30, 2004, in the 
following ways.
    First, it provides greater ideological and administrative 
autonomy for religious organizations. For instance, religious 
organizations are no longer required to demonstrate patriotism, 
support the leadership of the Chinese Communist Party, and also 
socialism.
    Also, the number and type of requirements for prior 
approval by the Religious Affairs Bureau has been reduced, and 
in the place of prior approval for these religious activities, 
only notification after the fact, or reports for the record, or 
simply inclusion in the annual report, would suffice.
    Second, in terms of religious formation, it is now the 
religious organizations, and not the Religious Affairs Bureau, 
that approve candidates for schools of religious studies. Also, 
it is the religious organizations and not the Religious Affairs 
Bureau that examine, certify, and re-certify religious 
personnel.
    Third, the government has also broadened the definition of 
religious activities to include, for instance, social services, 
that religious organizations now can undertake.
    There is much more rigorous protection of religious 
properties, so land use departments need to consult with the 
local Religious Affairs Bureau before they can change the 
designation of a property for religious use. Also, if a local 
government wants to remove or demolish religious buildings, 
they also need to compensate the religious organizations by 
``assessed market value.''
    There is also much more latitude given to local churches in 
relations with foreign churches, so the schools of religious 
studies can now send students to religious schools outside the 
Chinese territory, not only, for example, to the United States 
and Europe, but also to Hong Kong, Macau, and Taiwan.
    In reverse, religious schools outside China can also send 
students to Chinese schools of religious studies, and these 
schools can also invite theologians to lecture in Chinese 
schools of religious studies.
    Finally, the RRA also provides for administrative appeals, 
and also judicial challenges. That is, if a local religious 
organization disagrees with the local Religious Affairs 
Bureau's decision or ruling on a religious affairs issue, they 
can appeal that decision. Even if the appeal is not decided in 
their favor, they can also challenge it in court.
    Now, since the RRA took effect on March 1, 2005, I have 
counted seven provinces that have also promulgated their own 
religious affairs regulations. So what is the difference 
between the National RRA and the provincial regulations?
    In several important regulations, the provincial 
regulations have not incorporated the National RRA. So, for 
instance, the RRA provision for administrative appeal, and also 
judicial challenge, is omitted in all the provincial 
regulations, except the regulations in Shanghai.
    Also, the stipulation that land use departments need to 
consult the local Religious Affairs Bureau before they change 
the designated use of religious property is omitted in all the 
seven provincial regulations. In addition, the provision to use 
``assessed market value'' as a principle to compensate 
religious organizations if religious properties are demolished 
or removed for urban development projects this principle is 
also omitted in all of the seven provincial regulations, except 
the one in Zhejiang province.
    On the other hand, provincial regulations have also 
provided other stipulations that go beyond the RRA in providing 
religious freedom, so, for example, all seven provincial 
regulations stipulate the right of the believers to practice 
religion and observe religion in their own residences, and 
three provinces--Shanghai, Xinjiang, and Henan--stipulate that 
religious personnel can participate in social security 
programs. Some of these programs are very generous, and the 
ability of a cleric to participate, of course, depends on the 
city, county, or province where the program is running.
    In Shanghai, for example, religious personnel can 
contribute 3 percent of their monthly salary, and upon 
retirement can get a pension of up to 90 percent of their pre-
retirement monthly salary. In addition, the Shanghai 
regulations also stipulate that religious personnel who are 
from outside Shanghai can be eligible for local residence--
hukou--in Shanghai after three years of continuous service in 
the Shanghai municipality.
    So far I have only covered the legislation at the national 
and provincial levels. What about implementation of certain 
policies? Probably the greatest variation, and the most 
problematic, is in the area of religious property.
    The category that is not as problematic is religious 
property for religious use, meaning churches, temples, 
rectories, et cetera. As a general rule, when these types of 
properties have been seized, they are returned to the religious 
organization.
    What is problematic, however, is the following categories. 
First, properties housing religious social services, for 
example, the schools, the hospitals, the orphanages that were 
once owned and managed by the religious organizations.
    After the Communists took over in 1949, they also managed 
these schools, orphanages, clinics, and hospitals. So what has 
happened to the ownership, management, and rights to use these 
properties that support social services that the State and 
local governments have been managing for four decades or more?
    Second, there is also the issue of investment properties. 
Before the Communists took over, many religious organizations 
owned houses, apartments, et cetera, as investment properties.
    When the Communists took over, they allocated many of these 
houses and apartments, et cetera, to the employees of different 
government and Party agencies who were entitled to low-cost 
rental. So what has happened to the investment properties? 
Right now in a number of cities, many negotiations are 
underway. In one city in Henan province the Religious Affairs 
Bureau manages the investment income of RMB4 million, but only 
40,000, or 1 percent is given to the Catholic diocese.
    If the Catholic diocese would manage these investment 
properties, however, it is unlikely that it would be able to 
collect all the rents from both the private occupants and the 
government agencies that also are occupants of these 
properties.
    Probably the greatest improvement in the local regulations 
is in the area of social services, so both the Protestant and 
the Catholic churches may now operate homes for the aged, 
clinics, and hospitals. The Protestant church also manages a 
thriving network of YMCAs that provide English classes, 
computer classes, and also sports facilities.
    In the area of religious formation, both the Protestant and 
Catholic church manage the selection of students that they 
would send to schools of religious affairs outside China. The 
Protestant church, in 2006, held a nationwide exam and selected 
more than 10 students out of an applicant pool of 30 that they 
would send abroad, and also the Catholic church has also had 
their own selection process whereby they interviewed candidates 
to be sent abroad.
    Right now, there are about 300 Roman Catholic priests, 
nuns, and other seminarians that are enrolled in religious 
studies programs outside China. In addition, this year the 
national Protestant seminary in Nanjiang has six visiting 
theologians from four countries lecturing national seminary 
students. Catholic theologates are also hosting 20 theology 
professors from seven countries.
    So in conclusion, the overall trend since the promulgation 
of the Religious Affairs Regulation in November 2004, is that 
there is both real and substantial progress in the area of 
autonomy of the religious organizations and religious 
activities, in the certification of personnel, and in the 
relationship with the church outside China. The actual 
implementation varies from city to city, and also depends on 
the type of religious activity.
    Thank you.
    [The prepared statement of Mr. Tong appears in the 
Appendix.]
    Mr. Dorman. Well, good. Thank you very much for three 
excellent statements. We all recognize on the dais, and I am 
sure everyone in the audience recognizes after hearing your 
testimony, that this is a very complex issue.
    I would like to begin with a question that might help us to 
better understand the topic of this roundtable, regulation of 
religious freedom, by breaking the issue down into a few more 
manageable components.
    This is a point that you raised, Professor Tong, but I want 
to pose the question in a slightly different way and ask each 
of our panelists to address it.
    As we look at the practice of religion in China, I think we 
would all agree that we see inconsistency in the degree of 
religious freedom or religious repression from place to place. 
This results from a number of factors, among these: Party 
policy regarding religion, government implementation or lack of 
implementation of law and regulation, and the actions of local 
officials.
    There will certainly be questions from the dais on Party 
policy, and on implementation of national and local 
regulations.
    But to start, I wanted to take a step back and try to 
disassociate the national regulation from Party policy and from 
implementation to give us a better understanding for how all 
these pieces fit together.
    The first question is--and there will be two parts--as you 
all look at this regulation, setting aside the degree of 
implementation, and setting aside the fact of an often hostile 
Party policy toward religion, if the regulation was implemented 
as written, would it represent a step forward? Although this 
may be a difficult question to address in isolation, it may be 
useful to think about these issues separately, before we 
recombine them again.
    The second part of the question is this: as you look at the 
regulation as written, what does it tell you about the 
intentions of the Chinese leadership in terms of religious 
freedom in China? There has been a change. A new regulation is 
in effect. But do we see China moving closer to international 
human rights standards regarding religion or do we see China 
moving away from these standards? I hope all of you could share 
your knowledge, experience, and thoughts regarding this 
question. Anyone can begin.
    Mr. Carlson. I will comment very briefly, then defer to my 
fellow panelists.
    With regard to the first point, I assume you are referring 
to the RRA?
    Mr. Dorman. Yes. I am sorry, I should have made that clear.
    Mr. Carlson. I published a paper about a year and a half 
ago entitled ``China's New Regulations on Religion: A Small 
Step, Not a Great Leap Forward,'' which contains my conclusions 
on the RRA. I think I would stand by most of those conclusions.
    I think that the RRA and subsequent regulations are a small 
step forward in providing standardization, providing 
codification, proving more clarity, and attempting to resolve a 
lot of the patchwork quilt that had previously existed among 
the regional regulations.
    So if you analyze the RRA outside that scope of 
implementation, I would say, yes, it is a small step forward. I 
do not think it is the paradigm shift that the government would 
have us believe.
    As China tries to move from rule by law to rule of law, it 
is a small but important step. I think the decision to make it 
an administrative regulation rather than a law on religion 
passed by the National People's Congress. My understanding is 
that that option was considered, but rejected.
    Relating to your second question of whether this means that 
China is moving closer to international human rights standards: 
In terms of freedom of religious belief, yes, China continues 
to provide for freedom of religious belief. In terms of freedom 
of religious practice, however, it largely turns on what a 
bureaucrat at the national, provincial, or municipal level 
decides is a ``normal'' religious activity or ``normal'' 
religious behavior, as opposed to what is ``abnormal'' or 
``atypical.''
    On their face, the regulations provide a great deal of 
vagueness, which could be used in the long term to give more 
flexibility, especially to unregistered groups, but the fact 
that many of these very key terms are left undefined still 
leaves a lot to be desired.
    Mr. Fu. I think I agree with what Mr. Carlson said on the 
overall picture. I think at one point I observed, if it is 
fully implemented, it could be real progress. For the first 
time, you see in the regulation it imposed sort of a deadline, 
like in 30 days you have to have a response.
    If it is really implemented--I mean, just imagine if tens 
of thousands of house churches just showed up at the 
registration buildings and wanted to register. If they had the 
paper and they really seriously considered their application, 
and they need to have a 30-day deadline to give approval or 
disapproval, that should be regarded as real progress, if it is 
seriously implemented.
    In regard to the overall tone or the attitude, I think it 
is still premature to say that the intention of the current top 
leadership is to relax the rules to permit true international 
religious freedom, as defined in Article 18 of the Universal 
Declaration of Human Rights. In particular I want to point out 
how, in Zhejiang province, the new RRA, the add-on Chapter 7, 
reflects the four duties of government at various levels in 
that regulation.
    The government still has the four duties of safeguarding 
rights, hearing, and coordination and guidance. Among the 
descriptions of these duties there is an alarming clause that 
remains in the text: ``guiding religion to become compatible 
with socialism.'' You can translate that into ``become 
compatible with a socialist society,'' in the more accurate 
form.
    But that clause can be clearly translated into some radical 
negative actions against those religions who are regarded as 
not compatible in any sense with the national socialism 
doctrines.
    That would discourage those really qualified religious 
doctrines, and those people who want to serve in a church or 
diocese, but who maybe in some sense do not fully agree with 
the national political doctrine.
    For example, one Buddhist monk who was a former political 
dissident, was dismissed just because he performed a religious 
service for the victims of the government. This purely 
religious service--of course, can be interpreted by the 
political body as non-conforming to the socialist doctrine. So, 
that's my opinion and my concern.
    Mr. Tong. I would also agree with the previous two 
presenters, that the implementation is a step forward. If you 
look at both the national, and also provincial regulations, 
there are no new restrictions on any type of religious 
activities. The previous restrictions have been dropped. There 
are still cities and provinces that have restrictions, and it 
is because they were there before.
    It is also, I think, the intent of the Central Government 
of China that these be implemented, so since its promulgation 
in November 2004, there has been a nationwide campaign just to 
publicize the RRA to different cadres of the Religious Affairs 
Bureau at four different levels.
    First of all, there is a national-level seminar. Second, 
there are six regional seminars where five or six provinces are 
grouped, and then all the leading religious cadres have to be 
trained in the RRA. Third, at the provincial level there are 
also such seminars conducted. Then the different religious 
organizations also have training seminars to brief their own 
religious personnel on the new RRA.
    There is also a rather significant event that has not been 
reported: SARA, the State Administration of Religious Affairs, 
has launched a Web site where it has publicized all of the 
religious regulations, religious affairs circulars, et cetera 
with links to the different provincial Religious Affairs 
Bureaus, as well as national organizations.
    About seven or eight provincial religious affairs bureaus 
also have their own Web sites. These are rather user-friendly 
ones, so to take on one of the facts that were reported by 
Pastor Fu, there are about 17 or 18 types of religious 
activities that require permission by the local religious 
affairs bureau, and these are listed in many of the religious 
affairs' Web sites.
    Not only that, but there are also downloadable forms where 
the religious organizations and religious venues can apply for 
this permission online. So I think, this is progress in the 
right direction, where they tried to be more friendly to the 
religious organizations, religious personnel, and also 
religious venues.
    Mr. Dorman. Good. Thank you very much.
    I would like to turn the questioning over to my colleague, 
John Foarde, who serves as Staff Director for our Co-Chairman, 
Representative Jim Leach.
    John.
    Mr. Foarde. Thank you, Dave. Thanks to all three of our 
distinguished panelists. Thank you for coming and sharing your 
expertise with us this afternoon.
    I know that all my colleagues want to ask questions, so I 
will try to ask a couple of very quick ones.
    Eric Carlson, I was particularly taken by your series of 
sort of rhetorical questions about whether new religious groups 
that wanted to be approved might need to have, for example, a 
patriotic national association to affiliate with, or the very 
intriguing concept that such groups might try to leverage a 
local registration and bootstrap themselves to a national 
registration.
    But I would like to actually ask you first, and then maybe 
the others could comment briefly, on your views of the chance 
that any new religious groups will be approved under this sort 
of rubric, or any other, let us say, in the next couple of 
years.
    Mr. Carlson. I would answer that in two ways. For groups 
that the government is not otherwise inclined to register, I 
would say that the chances are almost zero. For groups where 
the government is perhaps more inclined to register, for 
instance, the Orthodox Church, the options I presented are ways 
that the government could fit these existing organizations the 
government understands as being non-problematic.
    For instance, if the Orthodox Church is registered in 
Xinjiang or Zhejiang, could they go to a different province, 
perhaps in Beijing, and say: ``We are registered in this other 
location, can we also register here? '' It seems like there's 
at least the possibility that this could happen. But for 
organizations the government has clearly disfavored--for 
instance, some of the more radical house church movements--I 
would say the chance of using some of these options is near 
impossible.
    Mr. Foarde. Either of the other panelists? Really briefly, 
because I want to go on.
    Mr. Fu. Yes. I, myself, I do not think there will be a 
chance to recognize a new religion in the next two years. I 
could be stoned to death if I am wrong. [Laughter.]
    Mr. Tong. There are signs that new religious groups will be 
recognized and registered. So in SARA, the State Administration 
of Religious Affairs, there used to be only five offices 
dealing with each of the five recognized religions: 
Catholicism, Protestantism, Islam, Buddhism, and Daoism. But 
lately, there is a new office that deals with new religious 
groups. That is the authority to prepare for eventual 
recognition and also registration of other religions.
    So I asked SARA whether there was any religious group that 
they have that they would approve registration for, et cetera, 
and they said that they deal with only national-level groups. 
For local-level groups, it would be up to the provincial 
Religious Affairs Bureaus. I was told indirectly that, in 
Fujian, they have approved the registration of some local folk 
religions, like the Mazu.
    Mr. Foarde. Useful. Thank you very much.
    Thank you.
    Mr. Dorman. Good. Thank you, John.
    I would like to recognize, next, Susan O'Sullivan, who 
represents Assistant Secretary of State for Democracy, Human 
Rights, and Labor, Barry Lowenkron, who is one of our Executive 
Branch Commissioners.
    Susan.
    Ms. O'Sullivan. Thank you, Dave.
    I wanted, first of all, to thank all of you for your 
presentations. But I want to take advantage of Professor Tong's 
work on the Falun Gong to ask a question. You seem to be 
somewhat optimistic, or cautiously optimistic, about the trends 
for religious freedom for recognized religions in China.
    But at least in our discussions with the Chinese over the 
past seven years since the Falun Gong has been banned, there 
just seems to be zero tolerance. I am wondering what you see 
going forward in terms of government policy, and whether you 
anticipate any changes.
    I admit up front that I have not read your articles, but I 
would be interested in your thinking about what might happen 
there, given that tens of thousands of practitioners are 
currently in custody.
    Mr. Tong. For the Falun Gong, I do not see any signs that 
the Chinese Government would be more tolerant. The Falun Gong 
has been driven underground, certainly, and they still survive 
as an underground organization.
    They not only practice Falun Gong at home, but also they 
build cells in cities and they have been also going out, 
putting up posters, protesting Chinese Government policies, et 
cetera.
    But if you look at the more overt defiance of the Falun 
Gong, there used to be a time in 2003 that they would insert 
Falun Gong propaganda--videos, et cetera--in provincial, and 
also city television stations' programs. That has not been 
repeated more recently.
    In 2003, there were many public demonstrations by Falun 
Gong practitioners. They would demonstrate outside the State 
Labor Reform Schools. I have not read reports that that has 
been the case in 2005 and 2006. So, it is a two-way street. 
That is, Falun Gong would not stage this overt defiance of the 
Chinese state and the government, and there are isolated 
reports that they have been actually releasing Falun Gong 
practitioners from the labor reformatories before their term 
has expired. So, they may be releasing them early.
    Mr. Fu. After talking with our Chinese guests, some of them 
still working within the government system, I got some new 
information. I am not completely sure whether that it 
represents a new trend or a new policy, but I heard from them 
that there is some sort of relaxed attitude toward Falun Gong 
practitioners, especially those who serve in the government. In 
the past, there was almost zero tolerance: either deny or go to 
the labor camp.
    Now, I was told that in many cases, they said, if you are 
known as a Falun Gong practitioner, as long as you are not 
putting up posters or doing work on the street, you are 
tolerated, and in some cases you are getting some better, even 
preferential, treatment because of maybe some media or 
international pressure. So, that might represent something 
where there is more tolerance, but I do not know whether this 
represents a major trend.
    Mr. Dorman. Good. Thank you, Susan.
    Next, I would like to recognize Commission Senior Counsel, 
Kara Abramson. As you all know, Kara did the important work of 
organizing this roundtable. So, thank you for that, Kara. Kara 
also looks at issues of religious regulation for the Commission 
and has the very difficult task of explaining to her staff 
directors what this all means.
    So, Kara, questioning over to you. Thanks.
    Ms. Abramson. Thank you. I would like to thank each of you 
for participating today.
    My question involves worship at home. As you know, the 
Chinese Government has said in its White Paper on religion that 
citizens do not need to register with the government to hold 
worship services in private homes ``mainly attended by 
relatives and friends for religious activities such as praying 
and Bible reading.''
    Indeed, religious groups that have fewer than 50 people 
would not even qualify as a religious organization that could 
then apply to register an outside site of worship.
    The national RRA is silent on this issue of worship at 
home. So I am curious to what extent the government does 
protect such worship at home, if it does so to any extent, and 
I wonder how we are to interpret provincial regulations that 
include provisions that say that individuals, and in some cases 
members of a family, can ``live a religious life'' or hold 
religious activities at home.
    Mr. Tong. The provincial regulations say that believers can 
practice religious life in their own homes. But I do not know 
the interpretation of that. Does that mean that they cannot 
invite other believers to also come to their own homes?
    Can only members of the immediate family practice religion 
in their own homes? But this is what the provincial regulation 
says, that is, the believers can practice religious life in 
their own residences.
    Mr. Fu. We should give credit to Ambassador John Hanford's 
persistent efforts after some negotiations. At least we know, 
on the Web site, in written form, they said in one provision 
``friends and relatives.''
    I think law enforcement officials had difficulty defining 
who are ``friends.'' With relatives, that can be easily 
defined, but the friends clause is very difficult. They should 
issue definitions for who should be regarded as friends.
    Also, I learned today, actually, when we had a meeting with 
one of our Chinese guests, Mr. Li Jingsong, said that he read a 
new document recently released by the government that said as 
long as there are fewer than 25 people in the household who are 
friends or relatives, they should not be required to register. 
I have not personally read or known this document before, so 
this is a new thing.
    Mr. Dorman. Good. Thank you.
    Next, I would like to recognize Lawrence Liu, who is a 
Counsel on the Commission and looks at freedom of expression.
    Lawrence.
    Mr. Liu. I would like to thank the witnesses also for your 
excellent presentations and providing us with so much useful 
information.
    My question relates to the content-based restrictions on 
publishing that are provided for in the Regulation on Religious 
Affairs.
    Article 7 of the RRA stipulates that publications with 
religious content may not include content that--and I am 
paraphrasing--upsets the harmony between religious citizens and 
non-religious citizens, upsets the harmony between different 
religions or within a religion, insults or discriminates 
against religious or non-religious citizens, spreads religious 
extremism, or violates the principles of religion's 
independence and self-governance.
    So I have a few questions. The first is, has anyone been 
punished for violating this provision of the regulations? If 
so, what did they publish and how did it violate this 
provision? Then my second question is, how do these content-
based restrictions affect the substantive content of what 
religious organizations publish in China? I address this 
question to each of the panelists.
    Mr. Tong. I have no specific information on whether people 
are actually penalized for breaching these stipulations. If you 
read Article 7, it says that religious publications have to 
also be in conformity with the central government's rules 
governing publications.
    So there is a national law governing publications, and also 
news and information media, in television, and printed 
newspapers and magazines, et cetera. There is a list of what 
can be published and what cannot be published. Part of it is 
the list of the restrictions that you referred to. But beyond 
that, I do not have specific information.
    Mr. Fu. I think the definition of ``religious literature'' 
should be more clear. Let me say it this way to address the 
content issue. Two years ago, there was a couple in either 
Anhui or Hunan province. They were found to be duplicating and 
selling DVDs or CDs published by Yuan Zhiming, who is a former 
political dissident but who became a Christian evangelist based 
in California. He published a DVD series called ``The Cross.''
    It is basically a history of the Chinese church, especially 
Chinese house churches. We got a hold of all the indictment 
papers when the couple was originally arrested and charged with 
a crime like subverting the national government, but the 
evidence was that he owned this DVD series and was duplicating 
them and distributing them to the people, and then the 
government said it contains ``June 4th contents.'' That is, it 
mentions the Tiananmen Square massacre on June 4, 1989, which 
the government says is harmful to the society.
    I think that is an example of how that clause could be used 
to punish people for distributing religious literature that is 
regarded overseas as nonreligious or that might be labeled of a 
political nature by some overzealous political figures and then 
the publishers or distributors could be punished.
    Mr. Carlson. I will add two points. First, my understanding 
is that when people are punished for a publication, it is 
normally done under the Criminal Law rather than under the 
provisions of RRA.
    Second, I agree that the list of the prohibitions you read 
clearly can serve as a chilling effect. I am not sure whether 
that actually happens in practice, but at least on a 
theoretical basis, these are people who want to print 
something, but when they look at the 
regulations, they may see that their publication is potentially 
problematic, so therefore they will err on the side of not 
publishing something versus publishing something that could 
potentially get them into trouble.
    Mr. Dorman. Thank you.
    Next, I would like to recognize Commission Special Advisor, 
Dr. Mark Milosch, who looks at religious freedom.
    Mark.
    Mr. Milosch. I would like to second my colleagues' thanks. 
I observe that you all agreed that the RRA would have been a 
step forward if it had been implemented. I would like to ask 
you what you think it was a step forward toward.
    Was it a step toward a genuine liberalization which would 
have the state getting out of the business of managing 
religion, or is it a step more toward a kinder and gentler 
management which would be, for all that, and all the more 
encompassing and more effective control of religion?
    Reading the regulations and observing recent events--
including the beating on four occasions last year of registered 
Catholic priests--I have my own suspicion that it represents a 
move toward more effective control and not toward less control. 
I would be interested to hear your observations.
    Mr. Fu. Let me see. I at least observed one very overt 
element. In Zhejiang province, it is called ``Qian Hu Tiao 
Kuan.'' It relates to the household. In order to be qualified 
to move from one province to another province as a religious 
leader, Article 19 imposes one requirement and four procedures 
on any given religious leader or teacher who wants to move into 
a province, or even within a province.
    For employment in the province, you have to be there for 
three years or more, have recommendations by religious groups, 
approval by the Administration for Religious Affairs of the 
county, the city, and the province. This requirement is a 
direct violation of the Chinese Constitution, which guarantees 
equal treatment.
    Even the floating population does not have to comply with 
these sort of restrictions. For example, if you want to do a 
building project, you are an expert worker on building, you do 
not need to go through these types of complicated procedures in 
order to be qualified, especially from one province to another 
province.
    Even within the province itself, it is certainly a step 
backward and puts so much burden even on the government-
approved religious leaders who only wish to perform their 
religious services. It is even more difficult for those accused 
of being self-proclaimed evangelists or other religious 
figures.
    I think if everything is implemented, at least we can see 
that it is toward the rule of law instead of rule of religion 
by secret documents, regulations, or files. It has more 
transparent rules that people can go to. Even those government-
sanctioned religious figures can have more rules, guidance, and 
an appeals process.
    That, I think, is progress. In the past, religion was 
primary managed by secret documents. There is now, of course, 
number 19, number 6. In the past, they were all secret 
documents. And, of course, behind the scenes there are more top 
secret documents to manage these types of affairs, but at least 
we have a document at the national level to follow.
    Mr. Tong. I think that is certainly true. There is also the 
rule of law, transparency. If you look at the RRA, there is a 
list of stipulations for the constituted authority of both SARA 
and provincial, city, and county religious affairs bureaus what 
the national religious organizations can and cannot do, and 
also what the religious venues can and cannot do. In addition, 
the various procedures on religious activity and the process, 
how to register it, what kind of permission is required. So, 
definitely it is codification of regulations related to 
religious activities.
    At the same time, I also think that it is not only kinder 
and gentler management of religion, but I think it is also a 
step toward greater liberalization. You can see it by the 
number of restrictions, previous restrictions and requirements, 
that used to be asked for religious organizations and many of 
these have been dropped or watered down.
    Mr. Dorman. Good. Thank you very much. Remarkably, we are 
almost out of time. We have about two minutes left. So, taking 
that into consideration, I am going to give Kara Abramson our 
last question, and apologize to our witnesses, because we might 
go two or three minutes over, if that is all right. Thank you.
    Ms. Abramson. Thank you.
    As you have all noted, the national RRA is written in broad 
language and includes some vague terminology. It also leaves 
out some language found in other regulations. It does not, for 
example, mention the five main religions by name. As Professor 
Tong has noted, it also has left out some restrictions that 
have been found in older regulations.
    My question is, first, does leaving out mention of a 
restriction necessarily mean it is no longer in place? Second, 
what are we to make of the RRA's ambiguous language? Does it 
reflect political compromise, sloppy drafting, the intent to 
have provincial governments clarify meaning through their own 
legislation, or something else? What are we to make of vague 
language and various omissions, including the omission of 
previously stated restrictions?
    Mr. Carlson. From a legal perspective, the absence of a 
restriction that previously existed would imply that the 
restriction, at least on a national level, would no longer 
exist. The fact that there have been provincial-level 
regulations that have been passed since, also without these 
provisions, would also imply at least a trend toward omitting 
those restrictions.
    Of course, the absence of restrictions does not necessarily 
guarantee affirmative rights. It merely guarantees the absence 
of the restrictions.
    Your second question was?
    Ms. Abramson. What are the reasons behind this vague 
language? That is the million-dollar question.
    Mr. Carlson. That is the million-dollar question which I, 
unfortunately, do not have an answer to. I would defer to my 
co-panelists on that.
    Mr. Tong. I think it is a question of legal jurisdiction. 
The RRA is on a national level. You can see that several 
national- and international-level religious affairs provisions 
would stipulate, for example, what to do with the consecration 
of Catholic bishops, with a successor to the Dalai Lama. That 
is not mentioned in all of the provincial ones.
    At the same time, the national-level regulations do not 
stipulate many religious activities at the local level. For 
instance, the registration of the religious venues, and also 
the training seminars at the local level, the RRA did not 
mention those, but these are in the provincial regulations. So, 
that is the first point, the legal restriction.
    The other one is that in the hierarchy of legislation in 
China, the higher level is usually a statement of general 
principles that are necessarily abstract, and then they would 
need the provincial and the local ones to make it more concrete 
and specific and apply to the local circumstances.
    Mr. Dorman. Our time is up, unfortunately. Obviously, the 
conversation on this regulation specifically, and religion in 
China generally, is not over. We hope that we can invite our 
witnesses back in the future to continue the conversation, 
because their knowledge and expertise has certainly helped 
illuminate the issue for us.
    So on behalf of our Chairman and Co-Chairman, I would like 
to thank all of our witnesses and everyone in the audience for 
coming today. On that, I will bring this roundtable to a close. 
Thank you.
    [Whereupon, at 3:33 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Eric R. Carlson\1\

                           november 20, 2006

                            I. Introduction

    As a lawyer by training and trade, I hope to offer a few thoughts 
from a legal perspective on China's national and regional regulations, 
with the full realization that the situation on the ground does not 
always comport with legal requirements.
    The Chinese government promulgated the Regulation on Religious 
Affairs (RRA) in an attempt to standardize religious administration and 
practice. New and amended regional regulations issued after the RRA, 
however, are sometimes at odds with the RRA and pose questions for 
religious groups. While these regulations reveal some tinkering around 
the edges, these regulations can be seen as more of a codification and 
reaffirmation of existing policies established under the RRA than a 
radical departure from the RRA framework. Groups outside of the 
regulatory regime continue to have an uncertain legal status. How these 
groups are integrated into the religious administration may be 
indicative of the future of religious freedom in China.

                       II. Reflections on the RRA

    In late 2004, China's State Council announced that it was issuing a 
new Regulation on Religious Affairs (RRA) that would be a ``paradigm 
shift'' in religious administration. At the time, many observers, 
including myself,\2\ expressed cautious 
optimism that, while the RRA did not represent a fundamental reordering 
of state supervision over religion, it might result in a small step 
toward greater religious freedom in China. The RRA omitted several 
restrictions contained in prior national and regional regulations and 
left several provisions vague, possibly indicating a gradual shift 
toward more flexibility in religious administration and perhaps allow 
space for unregistered groups to flourish. Further, the RRA provided 
additional legal protections in several areas.
    In the two years since the announcement of the RRA, this optimism 
has been tempered by actual events. The RRA offered few unrestricted 
rights--most contained qualifications, provisos, and restrictions. The 
omissions that were thought perhaps to signal a new openness did not 
grant any new rights, and religious groups are not fundamentally on 
more solid legal ground than before. Further, the vagueness in the RRA 
cuts both ways, allowing for inconsistent interpretations and the 
possibility of abuse of discretion by less sophisticated local 
officials. Scholars cautioned that much would depend on implementing 
guidelines issued subsequent to the RRA. To date, these guidelines have 
not been publicly issued.\3\ The practical implementation of the RRA, 
however, indicates that the rights set forth in the RRA may be viewed 
as a ceiling rather than a floor.

    III. The Interrelationship of National and Regional Regulations

    Since the promulgation of the RRA, one national-level regulation 
and eight regional regulations affecting religious administration have 
been issued. The overall scheme of state supervision over religion 
remains constant. Inconsistencies among these regulations pose 
practical questions for both registered and unregistered religious 
groups.

            A. MEASURES FOR REGISTRATION OF RELIGIOUS VENUES

    Six weeks after the RRA took effect, the State Administration for 
Religious Affairs (SARA) promulgated the ``Measures on the Examination, 
Approval, and Registration of Venues for Religious Activity'' 
(``Measures'').\4\ Like the RRA, the Measures do not provide any new 
rights per se, but do represent a more sophisticated effort to give 
clarity to the registration process. Specific procedures give both 
religious organizations and bureaucrats a clearer process to follow. 
The Measures also provide for 
decentralized decisionmaking, pushing approval down to the regional and 
lower levels, which then report their decisions to SARA. 
Decentralization may result in faster decisionmaking and possibly abuse 
by regional and lower-level officials, who are often less sophisticated 
than their national counterparts. Article 2 of the Measures includes 
``other fixed venues for religious activities'' in the definition of 
permitted religious venues, rather than limiting religious venues to 
those of the five traditional religions. The term ``religious groups'' 
is not defined in the Measures.\5\ Article 5 of the Measures requires, 
among other things, a list of the members of the preparatory committee. 
While a list of only the preparatory members is better than previous 
provisions requiring a list of all members, it still reflects an 
underlying mistrust of religions and implies that only ``good'' 
citizens should be able to establish religious groups. Two clarifying 
provisions help in giving more legal certainty: Article 11 clarifies 
that previously registered venues need not re-apply for registration, 
and Article 15 clearly repeals the supplemental registration 
regulations promulgated by SARA in 1994. The largest problem with the 
Measures is that no clear approval standard exists. Article 6 requires 
religious cadres to ``solicit the opinions'' of local leaders. Do these 
local leaders exercise a veto over approval of a religious venue? If 
not, how much weight is given their ``opinions'' ? If an application is 
denied, can it be appealed to the regional RAB or to SARA? The Measures 
provide additional clarity in registration procedures but, like many of 
the post-RRA regional regulations, leave many unanswered questions.

                B. NEW AND AMENDED REGIONAL REGULATIONS

    Despite the efforts of the RRA and the Measures to establish clear 
standards for religious administration, they have not systematized the 
application of laws in ways some scholars had envisioned. The patchwork 
of municipal, regional,\6\ and national regulations remains, and from a 
legal perspective, the events following the RRA pose conundrums for 
religious groups and their leaders. Eight regions have issued new or 
amended regulations on religious affairs following the RRA's entry into 
force in March 2005 and the enactment of the Measures in April 2005. In 
April 2005, Shanghai was the first to amend its regulation.\7\ Henan 
and Shanxi issued new regulations in July 2005. Zhejiang amended its 
regulation in March 2006, as did Anhui in June 2006. Beijing amended 
its regulation in July 2006, and Hunan and Chongqing did so in 
September 2006.\8\ Some of these regulations bring the provincial law 
in conformity with the RRA, but others retain and re-enumerate 
provisions that are at odds with the RRA and the Measures.

1. Preemption issues
    China's Legislation Law indicates that national-level regulations 
have a ``higher legal authority'' than regional or local 
regulations.\9\ The Legislation Law provides that where a national-
level regulation has come into force, contravening provisions in 
regional regulations are invalid, and the issuing regional body ``shall 
amend or repeal such provision on a timely basis.'' \10\ But the 
Legislation Law also provides that a regional regulation can be used to 
``implement a national law or administrative regulation in light of the 
actual situation of the jurisdiction.'' \11\
    From a legal point of view, the drafters of the post-RRA regional 
regulations seem to believe either: (1) the pre-existing provisions of 
regional regulations do not 
conflict with the RRA and therefore do not need to be changed; or (2) 
the regional regulations do in fact conflict with the RRA but serve to 
implement religious administration ``in light of the actual situation'' 
in that province.\12\ For the provinces that have not acted after the 
RRA, it could be because either (1) they believe that the RRA 
implicitly repealed all regional-level regulations on religious 
administration, and thus there is no need to repeal the prior 
regulations; (2) they are in the process of drafting an amended or new 
regulation; or (3) they have chosen to ignore the RRA and continue to 
pursue religious administration as before. The disparate reactions 
among the provinces following issuance of the RRA indicate that all of 
these situations are possible.\13\
    While these preemption issues pose interesting theoretical legal 
issues, they also have real consequences for religious believers. 
Because religious organizations exist and operate in towns, counties, 
and provinces whose regulations sometimes conflict with national 
regulations, what set of laws should religious believers and their 
leaders follow? If a regional regulation conflicts with the RRA, which 
provision should a religious body follow? If the RRA provides rights 
that a regional or local regulation does not provide, can a religious 
body successfully assert these rights? What significance does the 
absence of new or amended regulations in other provinces have? Does the 
RRA apply in place of the preexisting regional regulation, as a 
supplement, or neither? \14\ For instance, should a religious body in, 
say, Xinjiang assume that the RRA is applicable in the province, the 
preexisting regional regulation, or parts of both? If the venue 
registration provisions of a regional regulation are not the same as 
the Measures, which procedures should a religious group follow to 
register a venue? Can religious groups avail themselves of rights 
contained in regional regulations but not the RRA, and vice versa? Are 
groups subject to penalties contained in the RRA but not in regional 
regulations? If regional RAB cadres applied a penalty that was more 
restrictive than that provided for under the RRA, would an 
administrative appeal be possible under Article 46 of the RRA? \15\ If 
so, to what body? What should groups make of deletions from new/amended 
regulations? How do unregistered groups fit in to this legislative 
morass? Some provinces recognize groups outside the traditional five--
can these groups ``leverage'' registration in one province to obtain 
registration in another? \16\ Are religious groups outside the 
traditional five presumptively unauthorized in provinces where post-RRA 
regulations still limit the definition of ``religion'' to the 
traditional five?
2. Key changes in the new and amended regional regulations
    The drafters of the new and amended regional regulations seem to 
have been closely examining the RRA when drafting but made a conscious 
decision not to simply copy and paste provisions. Rather, it appears 
that regional regulations adopted some provisions of the RRA and 
Measures, modified other provisions, omitted some provisions in the 
Measures, and added new provisions not contained in the RRA or 
Measures. At times, it appears that the drafters sought to salvage the 
existing regional regulation and only make changes where the 
regulation's provisions were in direct conflict with national policy. 
Even then, as the table below shows, many disparities remain.


------------------------------------------------------------------------
         Location, Date, and Type                    Key Changes
------------------------------------------------------------------------
Shanghai--April 2005 (amended)............  Expands definition of
                                             ``religious affairs''
                                             beyond five traditional
                                             religions, but still within
                                             legal confines--established
                                             and registered according to
                                             law (old art. 3; new art.
                                             3)
                                            Eliminates requirement that
                                             national agencies within
                                             city abide by these
                                             regulations (old art. 8)
                                            Religious groups and venues
                                             enjoy preferential tax
                                             treatment (new art. 11; cf.
                                             RRA art. 36) [no
                                             corresponding requirement
                                             to report income and
                                             expenditures]
                                            Deletes list of permitted
                                             titles for religious
                                             officials (old art. 15)
                                            Religious personnel can
                                             participate in city's
                                             social security program
                                             (new art. 13)
                                            Detailed registration
                                             requirements and procedures
                                             for religious venues (new
                                             arts. 17--19; cf. RRA art.
                                             13)
                                            New provisions on large
                                             outdoor statutes (new art.
                                             23; cf. RRA art. 24)
                                            Religious believers may have
                                             a ``religious life'' within
                                             their homes (old art. 30;
                                             new art. 27)
                                            Eliminates enumerated list
                                             of permitted religious
                                             activities, potentially
                                             broadening scope (old art.
                                             30)
                                            Amends prior prohibition on
                                             various activities: (1)
                                             deletes references to
                                             fortune telling, palm
                                             reading, and casting of
                                             lots; (2) maintains
                                             prohibition on divination,
                                             exorcism, and healings, (3)
                                             limits the prohibitions to
                                             those activities that ``are
                                             in opposition to the public
                                             morality or church
                                             teachings'' (old art. 28;
                                             new art. 24)
                                            Specific requirements for
                                             approval of large-scale
                                             religious activities (new
                                             art. 26)
                                            Provisions on religious
                                             institutes modified to come
                                             closer to RRA provisions
                                             (old arts. 35--39; new
                                             arts. 32--37; cf. RRA arts.
                                             8--9)
                                            Prohibits transfer of
                                             religious relics and
                                             property (new art. 39; cf.
                                             RRA art. 32)
                                            Chapter title changed from
                                             ``Foreign Contacts'' to
                                             ``Foreign-Related Religious
                                             Affairs'' (old ch. 8; new
                                             ch. 8)
                                            Deletes approval process for
                                             foreigners to apply for
                                             approval for filming at
                                             religious venues (old art.
                                             50; but see RRA art. 25)
                                            Eliminates permission for
                                             foreigners to bring in
                                             religious articles for
                                             personal use (old art. 51)
                                            Significantly restructures
                                             ``Legal Responsibilities''
                                             (i.e., penalties) section
                                             with more specific
                                             requirements and penalties
                                             for violations (old arts.
                                             54--59; new arts. 51--61;
                                             cf. RRA arts. 38--46)
                                            Eliminates authorization for
                                             Shanghai RAB to bear
                                             responsibility for
                                             interpretation and to
                                             implement detailed rules
                                             (old arts. 61--62)
                                            Apparently effective upon
                                             promulgation (new art. 63
                                             retains March 1, 1996
                                             effective date)
------------------------------------------------------------------------
Shanxi--July 2005 (new)...................  No previous provincial-level
                                             regulation
                                            Defines ``religious groups''
                                             as the patriotic religious
                                             associations governing the
                                             five traditional religions,
                                             plus ``other religious
                                             organizations established
                                             in accordance with law''
                                             (new art. 7)
                                            Specific requirements for
                                             registration of religious
                                             groups: (1) name,
                                             residence, and responsible
                                             person; (2) does not
                                             violate the Constitution,
                                             laws, regulations, or
                                             rules; (3) has a legitimate
                                             source of income; (4) is
                                             textually researchable,
                                             conforms to the country's
                                             modern evolution of
                                             religious history, and does
                                             not violate classic
                                             scriptures, doctrine, or
                                             canon; and (5) the
                                             organizational structure
                                             must be representative (new
                                             art. 8)
                                            Includes in the definition
                                             of religious venues
                                             ``Buddhist temples, Daoist
                                             temples, mosques, churches,
                                             and other fixed locations
                                             for religious activities
                                             that have been legally
                                             registered'' (new art. 11;
                                             cf. Measures art. 2)
                                            Detailed requirements for
                                             registration of religious
                                             venues (new art. 12)
                                             somewhat track requirements
                                             in Measures arts. 5, but
                                             not entirely
                                            Enumerates a list of
                                             religious personnel from
                                             traditional five religions
                                             ``and so on,'' but no real
                                             provision for those outside
                                             traditional five religions
                                             (new art. 16)
                                            Defines ``religious
                                             activities'' via an
                                             enumerated list (new art.
                                             20)
                                            Religious citizens can
                                             perform ``normal''
                                             religious customs within
                                             their own homes (new art.
                                             22)
                                            Authorization procedures for
                                             religious activities
                                             somewhat parallel RRA
                                             provisions, but with
                                             shorter time windows (new
                                             arts. 23--24; cf. RRA 22)
                                            ``Legal liability'' chapter
                                             (new arts. 28--34) somewhat
                                             parallels RRA provisions
                                             (RRA arts. 38--46) but with
                                             inconsistent provisions
                                            Two-month window between
                                             enactment and effective
                                             date (new art. 35)
                                            No chapter on religious
                                             property
------------------------------------------------------------------------
Henan--July 2005 (new)....................  Defines ``religion'' as five
                                             traditional religions (new
                                             art. 2)
                                            Special provisions for
                                             registering a Catholic
                                             diocese (new art. 8)
                                            Specific requirements for
                                             training of religious
                                             personnel (including
                                             ``patriotic education'' and
                                             ``conforming religion to
                                             socialist society'') and
                                             approval procedures (new
                                             arts. 9--10) [``conforming
                                             religion to socialist
                                             society'' often found in
                                             religious policy documents
                                             but not usually in law]
                                            List of requirements for
                                             registering religious
                                             venues (new art. 17)
                                             largely parallel Measures
                                             but adds requirement to
                                             submit a building plan
                                            Religious citizens can
                                             practice religious customs
                                             within their homes (new
                                             art. 21)
                                            Approval requirements for
                                             multiprovincial activities
                                             largely parallel RRA
                                             provisions (new art. 23;
                                             cf. RRA art. 22)
                                            Publication requirements
                                             (new art. 25) parallel RRA
                                             provisions (RRA art. 7) but
                                             add sentence that
                                             organizations and
                                             individuals cannot ship,
                                             sell, distribute, or post
                                             any illegally printed or
                                             imported religious
                                             publications or materials
                                            Legal liability chapter
                                             (arts. 26--31) parallels in
                                             condensed form the
                                             provisions of the RRA (RRA
                                             arts. 38--46)
                                            Explicitly repeals 1991
                                             regulation (new art. 32)
------------------------------------------------------------------------
Zhejiang--March 2006 (amended)............  Deletes references to five
                                             traditional religions (old
                                             art. 2)
                                            Emphasis on rule of law (new
                                             arts. 7, 21)
                                            Expanded chapter on
                                             religious personnel (new
                                             arts. 9--15)
                                            Specific requirements for
                                             training of religious
                                             personnel and approval
                                             procedures (new art. 9)
                                            Eliminates specific list of
                                             religious personnel (old
                                             art. 13)
                                            ``Encourages'' religious
                                             organizations and venues to
                                             undertake social welfare
                                             projects (new art. 13)
                                            Specific requirement for
                                             Catholics to obtain
                                             approval from provincial
                                             Catholic body for religious
                                             activities; more onerous
                                             registration requirements
                                             (new arts. 18, 19)
                                            Expands approval procedures
                                             for new and remodeled
                                             venues (new arts. 22, 24;
                                             cf. RRA art. 13)
                                            Prohibits individuals or
                                             unapproved groups from
                                             establishing religious
                                             venues (new art. 23)
                                            Detailed requirements for
                                             ``democratic management''
                                             (new art. 25; cf. RRA art.
                                             18)
                                            Slightly broadens the types
                                             of acceptable donations
                                             (but retains prohibition on
                                             unapproved groups accepting
                                             religious donations) (new
                                             art. 28; cf. RRA art. 20
                                            New provisions for religious
                                             sites with tourist
                                             implications and statutes
                                             (new arts. 29--31; cf. RRA
                                             arts. 24, 26)
                                            Requires preapproval for
                                             filming at religious sites
                                             (new art. 32; cf. RRA art.
                                             25)
                                            Allows permission to hold
                                             religious services in one's
                                             own home retained but
                                             limited: ``[such worship
                                             services] cannot influence
                                             other people's normal
                                             lives'' (new art. 36)
                                            Additional requirements for
                                             approval of ``atypical''
                                             activities: (1) conformity
                                             to religious doctrine and
                                             custom; (2) necessity of
                                             holding the atypical
                                             activity; (3) has an
                                             actionable plan, including
                                             an emergency plan; and (4)
                                             ``other must-have
                                             conditions'' (new art. 38)
                                             [undefined and therefore
                                             susceptible to abuse]
                                            Scaled-back provisions on
                                             religious interference in
                                             foreign affairs (old arts.
                                             34--39; new art. 39)
                                            Religious groups and venues
                                             enjoy preferential tax
                                             treatment; required to make
                                             donation information public
                                             (new art. 42; cf. RRA 36)
                                            Eliminates permission to
                                             rent religious real estate
                                             (old art. 44)
                                            Restructured penalty section
                                             with more specific
                                             requirements and penalties
                                             for violations (new arts.
                                             44--50; cf. RRA arts. 38--
                                             46)
                                            Two-month window between
                                             enactment and effective
                                             date (new art. 51)
------------------------------------------------------------------------
Anhui--June 2006 (amended)................  Very minor amendments rather
                                             than a wholesale revision
                                             to conform with RRA
                                             provisions
                                            Requires invitations for
                                             religious personnel from
                                             outside the province and
                                             approval by city religious
                                             organizations and city
                                             religious affairs officials
                                             (art. 14)
                                            Requires religious colleges
                                             and universities to obtain
                                             the approval of the
                                             provincial religious body
                                             (art. 34)
------------------------------------------------------------------------
Beijing--July 2006 (amended)..............  Stated goal is to bring
                                             regulation in conformity
                                             with the RRA\17\
                                            Relatively minor amendments
                                             rather than a wholesale
                                             revision
                                            Removes requirement for
                                             annual inspections (art.
                                             20)
                                            Advance consent of
                                             management group requested
                                             before new construction or
                                             expansion (art. 25)
                                            Expands procedures for large-
                                             scale or cross-provincial
                                             religious activities (art.
                                             26)
                                            Precludes transferring,
                                             mortgaging, or investing in
                                             buildings and structures
                                             used for religious
                                             activities (art. 34; cf.
                                             RRA art. 32)
                                            Modifies ``legal
                                             liabilities'' section,
                                             though still differs from
                                             RRA provisions (arts. 47--
                                             48)
------------------------------------------------------------------------
Hunan--Sept 2006 (new)....................  Regulations are a hybrid of
                                             prior Hunan provisions,
                                             amended Shanghai
                                             regulations, and RRA
                                            Specifically cites the RRA
                                             and several RRA provisions
                                             (new arts. 1, 13); also
                                             cites national ``Law on
                                             Accounting'' (new art. 40)
                                            Eliminates references to
                                             five traditional religions
                                             in definition of
                                             ``religion'' (old art. 2;
                                             new art. 2)
                                            Retains references to
                                             resisting foreign
                                             influences (old art. 5; new
                                             art. 5)
                                            Adds ``other religious
                                             organizations'' to the
                                             definition of ``religious
                                             groups,'' which previously
                                             included only the patriotic
                                             religious associations
                                             governing the five
                                             traditional religions (old
                                             art. 7; new art. 8)
                                            Includes ``other fixed
                                             venues'' in the definition
                                             of permitted religious
                                             venues (new art. 12; cf.
                                             Measures art. 2)
                                            Allows for designation of
                                             temporary religious venues
                                             according to need (new art.
                                             12)
                                            Specific responsibilities
                                             outlined for ``democratic
                                             management organization,''
                                             including annual reports
                                             (new art. 16; RRA art. 17)
                                            Provisions for management of
                                             religious tourist
                                             destinations (new art. 23;
                                             cf. RRA art. 26)
                                            Religious personnel can
                                             participate in city's
                                             social security program
                                             (new art. 28)
                                            Specific approval provisions
                                             for cross-provincial
                                             activities (new art. 32;
                                             RRA art. 22)
                                            Permits home worship (new
                                             art. 29)
                                            Provisions for religious
                                             education (arts. 33--36;
                                             RRA arts. 8--10)
                                            ``Religious property''
                                             chapter, including tax
                                             preferences (new arts. 37--
                                             42) roughly mirrors RRA
                                             provisions (RRA arts. 30--
                                             37)
                                            Religious organizations can
                                             accept donations from
                                             abroad (new art. 38)
                                            ``Legal Liability'' chapter
                                             (new arts. 43--47) is
                                             abbreviated version of RRA
                                             provisions (RRA arts. 38--
                                             46); includes provision for
                                             administrative and criminal
                                             penalties for dereliction
                                             of duties (new art. 47)
                                            Separate provision for
                                             registration of venues for
                                             folk beliefs (new art. 48)
                                            Retains provision deferring
                                             to the national government
                                             religious involvement in
                                             foreign affairs and
                                             religious exchanges with
                                             Taiwan, Hong Kong, and
                                             Macau (old art. 42; new
                                             art. 49)
                                            Three-month window between
                                             enactment and effective
                                             date (new art. 50)
                                            Specifically repeals Hunan's
                                             2000 regulation governing
                                             religious affairs (new art.
                                             50)
------------------------------------------------------------------------
Chongqing--Sept 2006 (new)................  Somewhat parallels new Hunan
                                             regulations\18\
                                            Specifically cites the RRA
                                             and several RRA provisions
                                             (new arts. 1, 13)
                                            Requirement that People's
                                             Government at all levels
                                             ``listen'' to the ideas of
                                             religious groups, venues,
                                             and citizen-believers (new
                                             art. 7)
                                            Retains list of patriotic
                                             religious associations,
                                             including ``other religious
                                             organizations'' (old art.
                                             26; new art. 8)
                                            Special provisions for
                                             registering a Catholic
                                             diocese (new art. 9)
                                            Specific requirements for
                                             registration of religious
                                             groups: (1) name,
                                             residence, and responsible
                                             person; (2) does not
                                             violate the Constitution,
                                             laws, regulations, or
                                             rules; (3) has a legitimate
                                             source of income; (4) is
                                             textually researchable,
                                             conforms to the country's
                                             modern evolution of
                                             religious history, and does
                                             not violate classic
                                             scriptures, doctrine, or
                                             canon; and (5) the
                                             organizational structure
                                             must be representative (new
                                             art. 8) [parallels article
                                             8 of new Shanxi regulation]
                                            Disapproval of applications
                                             requires written
                                             explanation (new arts. 11,
                                             31)
                                            Includes ``other fixed
                                             venues'' in the definition
                                             of permitted religious
                                             venues (new art. 14; cf.
                                             Measures art. 2)
                                            Provisions for religious
                                             venues roughly parallel RRA
                                             (new arts. 14--27; cf. RRA
                                             arts. 12--26)
                                            ``Normal'' religious
                                             activities within the home
                                             permitted (new art. 29)
                                            Eliminates enumerated list
                                             of permitted religious
                                             activities (old art. 31)
                                            Eliminates prohibition on
                                             proselytizing outside of
                                             religious venues (old art.
                                             33)
                                            Special provisions for
                                             approval of Catholic
                                             bishops (new art. 32)
                                            Retains separate chapter for
                                             ``Religious Publications''
                                             (old and new ch. 6, new
                                             arts. 35--37) somewhat
                                             parallels RRA provisions
                                             (new art. 7)
                                            Detailed provisions for
                                             ``Foreign-Related Religious
                                             Affairs'' (new arts. 38--
                                             41), including specific
                                             permission for foreigners
                                             to attend religious
                                             services in the city and to
                                             hold religious activities
                                             upon registration
                                            Eliminates restriction on
                                             overseas religious
                                             organizations sending
                                             instructions and funding
                                             (old art. 45); modifies
                                             requirement that
                                             interactions with
                                             foreigners must follow
                                             principles of independent
                                             governance, mutual respect,
                                             reciprocal non-
                                             interference, and equality
                                             (new art. 38)
                                            ``Legal Liability'' chapter
                                             (new arts. 42--47) is
                                             abbreviated version of RRA
                                             provisions (RRA arts. 38--
                                             46)
                                            Provision for administrative
                                             and criminal penalties for
                                             dereliction of duties (new
                                             art. 42)
                                            Penalties for foreigners who
                                             violate regulation (new
                                             art. 45)
                                            Provides for administrative
                                             appeal of unfavorable
                                             decision (new art. 47)
                                            Two-month window between
                                             enactment and effective
                                             date (new art. 49)
------------------------------------------------------------------------

    Numerous variations make it difficult to draw broad conclusions 
from the amended regional regulations. Nevertheless, a few trends 
emerge:

<bullet> No regional regulation significantly curtails religious 
freedom further, but no provincial regulation attempts to expand 
significantly the scope of protections beyond that of the RRA. In this 
regard, the post-RRA regional regulations can be seen as a codification 
and entrenchment of religious policies rather than a significant 
advance beyond the basic policies and principles enshrined in the RRA.
<bullet> Many of the amendments and new regulations bring the regional 
administrative requirements closer to that set forth in the RRA, but 
many provisions still conflict.
<bullet> Several regional regulations restate the traditional five 
religions in the definition of ``religious organizations'' but add an 
``other'' category that in the end could potentially be used to 
register groups outside the traditional five.
<bullet> Several provinces permit religious observance within the home 
but with various limits (limited to only ``normal'' religious 
activities, or observance permitted so long as it does not influence 
the ``normal lives'' of others).
<bullet> Provisions requiring annual inspections have been eliminated.
<bullet> Legal liability provisions in many regional regulations 
parallel RRA provisions.
<bullet> Several new regulations provide incremental improvements 
(e.g., separate provision in Hunan regulations for registration of 
venues for folk beliefs; preferential tax treatment in several 
regulations; additional administrative protections in several 
regulations).

                IV. Groups Outside the Regulatory Regime

    All of the analysis above applies to the five traditional religious 
belief systems long recognized in China: Buddhism, Catholicism, Daoism, 
Islam, and Protestantism. Groups and belief systems outside of these 
five remain in an uncertain position.\19\ Some groups have received 
tacit consent from the government to carry on some form of religious 
observance despite having no legal existence or enforceable rights. 
Some groups have attempted to register as religious groups or as social 
groups but have not been successful. The religious affairs authorities 
have shown some willingness to accommodate these groups outside the 
traditional five, but there are theoretical and practical problems 
related to the patriotic religious associations (PRAs), which 
traditionally have served as the supervising authority over religious 
groups. At least five possible scenarios exist for dealing with these 
new belief 
systems.
    1. Fit the religious group into an existing PRA. The government 
could lump the group into the PRA that most closely resembles the 
group. But fundamental doctrinal differences (e.g., Judaism, Baha'i) 
might make this unpalatable to both the group and the PRA.\20\
    2. Establish a new PRA for the new group. This solution would 
presumably satisfy the government's desire for continued close 
supervision of religious practice, but may be undesirable to 
organizations which may prefer to decline close government supervision. 
Additionally, once additional PRAs are established beyond the original 
five, the government might fear opening a Pandora's Box to a number of 
less desirable religious groups. If the government seeks to apply the 
law fairly, it also would face the tricky question of defining 
``religion.''
    3. Register as a religious group directly with SARA outside the 
context of the PRAs. SARA may be amenable to have religious groups 
register outside the context of the PRAs. Indeed, SARA's establishment 
of a new Section to supervise folk beliefs and ``religions outside the 
five main religions'' may indicate SARA's flexibility. Bureaucratic 
politics may hamper such an option. SARA, a state organ, is under the 
supervision of the State Council; the PRAs are under the supervision of 
the United Front Work Department, a party organ, which might resist 
efforts to place religious groups outside its jurisdiction.
    4. Register as a social organization but not as a religion. The 
government could permit religious groups to register as a social 
organization under the applicable regulations but not have any formal 
religious status. While such a scenario might be acceptable to some 
groups, others may insist on being treated as a religion rather than 
merely a social organization. The government may also feel that 
religious groups need additional supervision, though this may be a 
soluble issue.
    5. Continue the status quo. Because of the shortcomings of the 
above options, the most likely outcome is to continue the status quo. 
The government could continue to permit meetings of some 
unobjectionable religious groups, particularly those that seem to pose 
no threat to the government. The government has tolerated such an 
arrangement for several groups of expatriates with established 
followings outside China.
    The Orthodox community in China poses an interesting case study 
exemplifying these issues. Both Heilongjiang and Inner Mongolia have 
recognized the Orthodox Church in their regulations,\21\ and the 
Orthodox Church also is registered in Xinjiang. After the announcement 
of the RRA, the Orthodox community announced its intention to apply for 
registration with SARA. SARA has not registered the Orthodox church, 
though SARA has cooperated with the Orthodox community to 
rebuild Orthodox churches in China and in other ways.\22\ How groups 
outside the traditional five, such as the Orthodox Church, are 
integrated into China's system of religious administration may be 
indicative of the future of religious freedom in China.

                             V. Conclusion

    As indicated above, this analysis has focused somewhat narrowly on 
the legal structures affecting religious administration in China.\23\ 
The basic policies of continued state supervision over religion with 
marginal improvements that were outlined in the RRA have not been 
altered by subsequent national and regional regulations. Conflicts 
between provisions in the RRA and regional regulations leave religious 
groups in a state of legal and practical uncertainty. Further, the 
system of national and regional regulations does not address religious 
groups that are not formally recognized by the government. China's 
religious administration policies and laws must make additional efforts 
to resolve these questions. While a call for unfettered religious 
freedom will likely go unheeded, it would be a step in the right 
direction for China to enact laws that comply with international 
standards that provide basic rights for all religious believers and 
groups. China's WTO accession and growing interactions with other 
countries amplify the need to hasten its transition from a rule-by-law 
to a rule-of-law nation and the need for all of its laws, including 
those governing religious freedom, to provide clarity, transparency, 
and predictability.

                                ENDNOTES

    \1\ Attorney, Covington & Burling LLP. These remarks reflect my 
personal viewpoints and not those of the firm or any of its clients.
    \2\ See Eric R. Carlson, ``China's New Regulations on Religion: A 
Small Step, Not a Great Leap Forward,'' 2005 BYU L. Rev. 747; see also 
Kim-Kwong Chan & Eric R. Carlson, Religious Freedom in China: Policy, 
Administration, and Regulation (2005).
    \3\ Sources indicate that many local Religious Affairs Bureaus 
(RABs) are awaiting clearer guidelines from SARA in order to implement 
the RRA. Several jurisdictions may be used as pilot projects for these 
additional guidelines.
    \4\ A good English translation can be found at http://www.cecc.gov/
pages/virtualAcad/index.phpd?showsingle=38682.
    \5\ Presumably, the term ``religious groups'' (zongjiao tuanti, 
sometimes translated as ``religious organizations'') refers to the 
patriotic religious associations, but regional regulations promulgated 
after the Measures leave open the possibility that groups apart from 
patriotic religious associations may be able to register.
    \6\ I use ``regions'' synonymously with ``provinces'' to describe 
provinces, provincial-level municipalities, and provincial-level 
autonomous regions.
    \7\ In 1995, Shanghai also was the first province to issue a 
comprehensive religious regulation. Shanghai issued its amended 
regulation on the same day as SARA issued the Measures. Interestingly, 
the amended Shanghai regulation is the only regional regulations posted 
on the SARA website. This may be due more to timing (the Shanghai 
regulation was the only one in effect when SARA uploaded most of its 
website content in July and August 2005) than an indication of SARA's 
approval of the Shanghai regulation.
    \8\ Liaoning and Jiangxi also are expected to issue new or amended 
regulations. See James Tong, Testimony Presented at the Issues 
Roundtable, Congressional-Executive Commission on China, Nov. 20, 2006, 
available at http://www.cecc.gov/pages/roundtables/2006/20061120/
Tong.php.
    \9\ See Legislation Law of the People's Republic of China, art. 79 
(``The effect of administrative regulations is higher than that of 
local regulations and rules.''); cf. art. 80.
    \10\ See id. art. 64: ``Where a national law or administrative 
regulation enacted by the state has come into force, any provision in 
the local decree which contravenes it shall be invalid, and the 
enacting body shall amend or repeal such provision on a timely basis.''
    \11\ See id. art. 64: ``A local decree may provide for the 
following: (i) matters for which enactment of a local decree is 
required in order to implement a national law or administrative 
regulation in light of the actual situation of the jurisdiction; (ii) 
matters which are local in nature and require the enactment of a local 
decree.'' Cf. Article 63.
    \12\ Article 88 of the Legislation Law permits the National 
People's Congress to repeal any local regulations conflict with the 
Constitution, laws, or administration.
    \13\ Of course, a political explanation is also possible: 
provincial authorities, without a strong push from the central 
government, do not feel compelled to obey strictly Beijing's commands. 
As long as the provincial regulations are not unreasonable, this 
explanation continues, the provincial authorities do not fear meddling 
by Beijing.
    \14\ Some of these preemption issues could be resolved if the 
National People's Congress passed a law, rather than the State Council 
issuing administrative regulations. In practice, however, such a law 
(which had been previously considered) may not affect the reality of 
religious practice in China. See Magda Hornemann, ``Would a Religion 
Law Help Promote Religious Freedom?,'' F18News, Sept. 11, 2006, 
available at http://www.forum18.org/Archive.php?article--id=840.
    \15\ In other words, do the RRA's administrative appeal provisions 
apply only to decisions taken with regard to the RRA, or to all 
decisions taken in relation to religious affairs?
    \16\ See infra Section IV (discussing the Orthodox Church).
    \17\ Beijing is apparently the only province to make conformity 
with the RRA an explicit goal, though other regulations (e.g., Hunan, 
Chongqing) explicitly reference the RRA.
    \18\ Because the Hunan and Chongqing were issued at the same time 
(and given Hunan and Chongqing's geographical proximity), they may have 
been developed concurrently.
    \19\ For these unregistered groups, it is unclear whether they can 
rely on the RRA provisions (art. 38) imposing penalties on state 
functionaries for abuse of power, neglect of duty, or illegal action 
for personal gain. A failure to register a group that should otherwise 
be registered could at least in theory be seen as neglecting one's 
duty.
    \20\ Other religious groups are similarly situated, such as 
Seventh-day Adventists, Jehovah's Witnesses, the Church of Jesus Christ 
of Latter-day Saints, Sikhism and Hinduism, not to mention a host of 
home-grown Chinese religious organizations. See Hans Petersen, 
``Despite New Regulations, Religious Policy Still Under Strain,'' 
F18News, March 8, 2006, available at http://www.forum18.org/
Archive.php?article--id=740.
    \21\ See 1997 Heilongjiang regulation, arts. 2, 24, and 31; Inner 
Mongolia 1996 regulation, art. 2.
    \22\ See various stories at www.orthodoxy.cn.
    \23\ Many NGOs and other groups track the actual reality of the 
status of religious freedom in China. Many of these reports provide 
troubling evidence that what laws and protections do exist are being 
unevenly enforced.
                                 ______
                                 

                 Prepared Statement of Xiqiu ``Bob'' Fu

                           november 20, 2006

 Changes in Religious Legislation as Seen Through the Promulgation and 
            Amendment of the Regulation on Religious Affairs

                               I. PREFACE

    The State Council ``Regulation on Religious Affairs'' (Hereafter 
abridged as 
National RRA) was implemented March 1, 2005. This regulation replaces 
two prior regulations: the ``Regulations Governing Religious Activities 
Sites'' and the ``Regulations Governing Religious Activities of 
Foreigners in China.'' The former was annulled after the comprehensive 
administrative law, the National RRA, took effect. The Standing 
Committee of the People's Congress in the following provinces and 
directly administered municipalities amended and promulgated the 
``Regulation on Religious Affairs'' (Hereafter abridged as Regional 
RRA) as regional regulations: Shanghai (April 21, 2005), Zhejiang 
(March 29, 2006), Anhui (June 29, 2006) and Beijing (July 28, 2006). 
Henan RRA was promulgated July 30, 2005 and enforced January 1, 2006; 
Shanxi RRA was promulgated July 29, 2005 and enforced October 1, 2005.
    Before the promulgation of the National RRA, the various provincial 
RRA's were themselves comprehensive regional regulations, basically 
embracing all aspects of religious organizations, religious faculty, 
religious activities sites, religious publications, religious 
activities or external affairs, religious properties, legal 
liabilities, etc. Judging from a comparative observation of the textual 
framework and content, this article argues that the National RRA in its 
six year history of research, investigation, and promulgation, has 
absorbed in its legislative format and content certain religious 
legislation and enforcement from various provinces, and reached 
legislative definitions with a higher level of generalization and 
greater directness.
    In view of the fact that the administrative regulation is higher 
than regional regulations in terms of effect, and that the content of 
the latter must not contradict the former, therefore relevant 
provisions of the Regional RRA's must be amended to comply with the 
National RRA. Following is an analysis of the emphasis of the religious 
administrative legislation of China, based upon examples of changes in 
the content of the RRA provisions of Beijing, Zhejiang, and Shanghai 
before and after amendments.

       II. CHANGES IN THE BEIJING RRA BEFORE AND AFTER AMENDMENT

    Corresponding changes have been made in religious organizations, 
religious faculties, religious activities sites, religious 
publications, religious activities or external affairs, religious 
properties and legal liabilities.
    According to Article 8 Clause 1 of the National RRA, the Beijing 
RRA amended Article 9 Clause 1 as follows: Establishment of religious 
academies and schools will not be reported by the Municipal Government 
but by the Municipal Administration of Religious Affairs to the State 
Council Administration of Religious Affairs for approval.
    Although Article 14 Clause 1\1\ has removed the phrase ``religious 
activities sites,'' the provision in Article 22 that ``the collective 
religious activities of believers shall be conducted in religious 
activities sites,'' and the procedural design that cross-regional 
religious activities must be approved\2\ implies that the change does 
not mean ``free'' space, but merely more concise wording and rigidity 
of logic. This is also reflected in the changes in Article 14 Clause 
2.\3\
    According to Article 18\4\ of the National RRA, the Beijing RRA 
amended Article 20\5\ to read: ``Religious activities sites shall 
establish sound administrative organizations and regulations and accept 
the guidance, supervision and inspection of the Administrative 
Department of Religious Affairs and other departments concerned with 
the People's local district or county government.'' Although such 
wording as ``annual inspections'' have disappeared, the departments 
with the authority of ``guidance, 
supervision and inspection'' over religious activity sites have been 
expanded from ``Administration of Religious Affairs'' to all 
``departments concerned'' in order to implement integrated supervision 
and control by the public security, state security, industrial and 
commercial, urban construction and other government departments.
    According to Article 25\6\ of the National RRA, Article 25\7\ of 
the Beijing RRA has been amended the word ``or'' to ``and'' requiring 
that adding a new structure, building conversion or extension at a 
religious activity site must obtain prior approval from the 
administrative organization of the place, i.e., the local 
Administration of Religious Affairs, and undergo proper procedures. 
This amendment is intended to prevent evasion of control over religious 
buildings by the Administration of Religious Affairs. Yet this dual 
approval has already been regulated in Article 11 of the 1994 
``Regulations Governing Places of Religious Activities,'' and this 
Beijing amendment is only a correction of the mistake in the 2002 RRA.
    According to Article 22\8\ of the National RRA, Article 26\9\ of 
the Beijing RRA has been amended to read as follows: Article 1: 
``Anyone who intends to organize a large-scale religious event that 
crosses provincial, autonomous regions, or directly administered 
municipality boundaries and exceeds the capacity of the religious 
activity site, or if intends to hold a large-scale religious event 
outside of a religious activity site shall undergo application and 
approval procedures according to the State Council ``Regulation on 
Religious Affairs.'' Article 2: ``Organizers of other types of large-
scale religious events shall obtain consent from the religious group of 
the municipality and first report to the religious affairs department 
of the People's Government of the district or county in which the 
religious event is to be held. The Religious Affairs Department and 
other departments concerned with the People's Government of the 
district or county in which the religious event is to be held shall, in 
accordance with their respective official responsibilities, provide 
management as needed.'' This type of amendment actually requires that 
not only large-scale religious events crossing provincial boundaries 
obtain approval from the provincial Administration of Religious Affairs 
(the County Administration of Religious Affairs has lost its authority 
of approval), but the local Administration of Religious Affairs, the 
Public Security Bureau, and even State Security will coordinate to 
provide supervision. As a result, this arrangement actually has 
strengthened control over large-scale religious events.
    According to Article 32\10\ of the National RRA, Article 34\11\ of 
the Beijing RRA has been amended to prohibit the assignment, 
mortgaging, or use as an investment in kind of religious properties.
    The amendments to Articles 47 and 48\12\ of the previous regulation 
merely amount to adjustments in the format of expression regarding 
categorization of legal penalties: The essence has not changed, i.e., 
penalties are exercised on religious activities (setting up religious 
activities sites, establishment of religious academies and schools and 
training classes) in violation of the policy of ``three fixes'' of 
``fixed location,'' ''fixed personnel,'' and ``fixed section'' that 
evade the regulatory order of administrative permission, including 
annulment or order to stop an activity, warning, seizure of illegal 
earnings, bulldozing of illegal buildings, administrative detention or 
fines. However, what is worth noticing is that this application of 
systematic penalties targeting the religious professional faculty--
religious buildings--academies and schools (training classes)--
donations--across region evangelization and location is the first time 
that the National RRA is cited as its basis.

      III. CHANGES IN THE ZHEJIANG RRA BEFORE AND AFTER AMENDMENT

    The previous regulation of Zhejiang, like that of Beijing, had 
already set forth a clear definition of ``religious affairs.'' The 
amended RRA,\13\ in reference to Article 5 Clause 1 of the National 
RRA, has changed the definition to ``Affairs that exist between 
religion and state, society and citizens, and involve state interests 
or social public welfare.'' This formality has provided a plausible 
cause for regulating religion. However, ``state interests,'' ``social 
public welfare,'' or ``public affairs'' are all uncertain concepts. If 
the administrative authorities alone have the arbitrative power to 
determine at will what constitutes ``public interests'' and use 
administrative logic to govern ``public affairs,'' then the religious 
system may possibly fall into the system ``pyramid'' permissible by 
administrative orders and become one of its subsystems losing its 
religious independence and due functions.
    Article 7\14\ was added to the amended RRA to reflect the four 
duties of government at various levels in the regulation of religion: 
safeguarding rights, hearing, coordination, and guidance. Among these, 
``guiding religion to be in conformity with the socialist society'' 
\15\ originates from the No.6 Directive jointly issued by the Central 
Committee of the Chinese Communist Party and the State Council on the 
requirement of ``strengthening the Party's leadership of religious 
work.'' This Directive, against the background of the June 4, 1989 
Incident and the dramatic transformation of Eastern Europe, signified 
the transition of religious policy from ``soft'' to ``hard.''
    Zhejiang, in its attempt to embody the legislative principle of 
Article 5 of the National RRA concerning the ``united defense and 
coordinated regulation'' of religious affairs by government 
administrative departments, takes a path similar to that of 
Shanghai\16\ but different to RRA from Beijing, has made more refined 
and specific provisions in its amendments. One example is the duty 
designed for such ``self-governing organizations by the masses'' as 
neighborhood committees and village committees\17\ to ``assist the 
government in the administration of religion.'' Against the background 
that Christian house churches in China refuse to register but worship 
in dispersed family gatherings, this type of system design extends the 
network of ``united defense'' against religion to the living quarters 
of citizens and enables stricter surveillance and more convenient 
regulation.
    Article 11 Clause 2 of the amended Zhejiang RRA is a newly added 
clause which specifically sets forth terms and conditions of 
establishing religious training classes, amounting to virtual 
restrictions on the scale of training.\18\
    Article 17 of the amended Zhejiang RRA is similar to the previously 
mentioned Article 14 of Beijing RRA, only with more concise language. 
The newly added Article 19, i.e., ``household movement'' Article 
imposes one requirement and four procedures on the religious faculty 
moving into the province or within the province: employment in the 
province for three years or more, recommendations by religious groups, 
and approval by the administration of religious affairs of the county, 
the city (within the district), and the province.\19\ Although the 
Chinese Constitution does not prescribe ``freedom of movement,'' it 
does contain the clause ``right of equality.'' Why are there such 
strict requirements and cumbersome application approval procedures for 
the movement of religious faculty households? Where is the legislative 
cause to justify the restrictions on the right to move a religious 
faculty? Is religious evangelization presenting such an obvious threat 
or detriment to ``public interests'' that it warrants strict restricted 
freedom of movement of religious faculty engaged in evangelization? 
This unique, ``innovative'' clause of Zhejiang Province actually smacks 
of the most wanton violation of the Constitution.
    The amended Zhejiang RRA sets down more detailed and concrete 
procedural specifications than before on the building of new 
structures, expansion, relocation, and construction of religious 
activity sites according to Articles 13 and 15 of the National RRA: 
Activity sites are divided into temples/churches and other fixed 
locations, and the approval procedures are classified as approval by 
the county, city (with districts), and provincial Administration of 
Religious Affairs. The terms of establishing religious activity sites 
not only requires approval of the administrative department in charge, 
but also entails review and approval from at least two levels, in 
contrast to places of commercial services which do not require approval 
from the Administration of Industry and Commerce at various levels. 
This procedural requirement imposes unreasonable prior restrictions on 
the right of religious freedom. The newly added Article 31 concerning 
the ``construction of outdoor large religious statues'' \20\ also 
requires gradual approval from the Administration of Religious Affairs 
of the city (with districts) and province.
    Chapter 5 ``religious activity'' of the amended Zhejiang RRA 
differs from the previous regulation by setting forth an explicit 
separation between ``collective religious activity'' and ``family 
religious life.'' \21\ The ``collective religious activity'' is limited 
to those held in legally registered religious activity sites or those 
permitted by the Administration of Religious Affairs at the county 
level or above, thus correcting the ambiguity in the previous 
regulation.\22\ Although ``family religious life'' has been 
acknowledged, the scale of a family gathering has been regulated by the 
newly added restrictive clause of ``not affecting normal daily life of 
others,'' \23\ thus providing a pretext for outlawing house churches on 
the basis of ``interfering in people's lives'' or ``disturbing public 
order,'' etc.
    The previous Zhejiang RRA (December 11, 1997) stipulated the clause 
on ``abnormal religious activity'' which was not found in the previous 
Beijing and Shanghai RRA's to regulate cross-regional religious 
activity. Therefore, this paper argues that Article 22 Clause 1 of the 
National RRA (March 1, 2005) originates from Article 32 of the previous 
Zhejiang RRA.\24\ Article 38 of the current amended Zhejiang RRA 
inherits the original legislative principle of the clause on ``abnormal 
religious activity'' and sets down more formal procedural definitions 
modeled on the formal legislative language of Article 22 Clause 1 of 
the National RRA and the Requirement of Four Conditions on holding this 
type of activity.\25\ Simultaneously in accordance with the requirement 
of Article 2 of the National RRA,\26\ adding Article 38 Clause 3: 
``religious groups or religious activity sites holding an abnormal 
religious activity shall adopt effective measures to prevent unexpected 
emergencies. The People's government of a rural or urban township in 
the location where the activity takes place and departments concerned 
with the people's government at the county level and above shall 
implement necessary management techniques according to their respective 
duties and responsibilities to guarantee the safe and orderly conduct 
of the 
abnormal religious activity.''
    In its last chapter ``Legal Liabilities'' the amended Zhejiang RRA 
describes ``abnormal religious activity'' in further detail, adding two 
new types of religious activity, i.e., those ``presided over by non-
religious personnel'' and ``unauthorized cross-regional'' that are 
included within the range of administrative penalty.\27\ Article 46 is 
also stipulated according to the principle of Article 43 Clause 1 of 
the National RRA.\28\ In the RRA of this province it first proposes the 
clause of inflicting an administrative penalty against an ``illegal 
religious building.'' \29\ It actually means to forcefully demolish 
unauthorized meeting places.

         IV. CHANGES IN SHANGHAI RRA BEFORE AND AFTER AMENDMENT

    The emphasis of the Shanghai RRA is basically identical to that of 
Zhejiang; the uniqueness of the amended Shanghai RRA lies in its 
specific definitions on ``religious publications.'' Article 12 Clause 2 
of its previous RRA stipulated ``printing, publishing, and distribution 
of religious books and periodicals, religious printed matters, and 
religious audio-visual products shall be conducted according to 
relevant provisions.'' This clause has been changed by the amended RRA 
to: ``printing, publishing, and distribution of religious newspapers, 
religious periodicals, religious books, religious electronic 
publications, and religious audio-visual products and so on 
(hereinafter termed ``religious publications'') shall be handled 
according to provisions of the state and this municipality concerning 
publication regulations.'' Also a new clause has been added reading 
``any religious groups and religious activity sites (hereafter termed 
``religious organizations'') that are in need of producing printed 
religious material out of the range of religious publications shall 
precede according to relevant regulations of the state and this 
municipality.'' This amendment seems, on the surface, to categorize 
religious publications, yet in reality it is requiring all religious 
publications (especially internal materials) be controlled by the 
licensing authorities of administrative departments.
    Before the promulgation of the previous Beijing RRA,\30\ the 
revised ``Regulations Governing Printing'' and ``Regulations Governing 
Publication'' were promulgated and took effect.\31\ The new 
``Regulations Governing Printing'' specifically prescribes that 
internal religious publications must undergo a dual review and approval 
procedure to obtain authorization from the Administration of Religious 
Affairs at the provincial level and issued a ``print permit'' from the 
Administration of the Press at the provincial level. While other types 
of internal publications need only be issued a ``print permit'' from 
the Administration of the Press at the county level.\32\ The design of 
the ``authorization by provincial level departments'' is intended to 
have a psychological effect in that regulation by a higher authority is 
a more intense level of policy implementation.\33\ This type of legal 
procedural discrimination is without explanation or plausible cause; it 
violates the constitutional principle of equal treatment at the same 
time violates the rights of equality, religious freedom and freedom of 
the press. It is based precisely on the unfair treatment of religious 
publications. The new Regulations Governing Publications adds a new 
chapter 5 ``Importation of Publications: establishment of a special 
operations and review system on imported publications.'' The previous 
Beijing RRA has a special chapter on religious publications which 
categorizes them by three criteria: ``open publications,'' ``internal 
material publications,'' and ``overseas publications,'' with emphasis 
on regulating publishing, printing and distribution of religious ``internal 
publications'' and ``overseas publications.'' And this chapter has been 
reserved intact in the new RRA.
    Article 12 of the previous Zhejiang RRA before the promulgation of 
the new ``Regulations Governing Printing'' and ``Regulations Governing 
Publication'' states, ``printing, publishing, and distribution of 
religious books and periodicals, religious printed materials, and 
religious audio-visual products shall obtain authorization from the 
Department of Religious Affairs of the province and approval from the 
Department of the Press of the province'' has been amended to Article 5 
Clause 1: ``publication of openly circulated religious publications 
shall be conducted according to regulations by the Publishing 
Administration of the state,'' and Clause 2 states: ``internal 
religious materials compiled by religious groups and temples/churches 
shall obtain authorization from the Administration of Religious Affairs 
of the province and issuance of a ``printing permit'' from the 
Administration of the Press of the province.'' This amendment has 
similarly divided religious publications into ``open circulation 
publications'' and ``internal material publications,'' and the latter 
needs to undergo dual authorization from both the Administration of 
Religious Affairs and the Administration of the Press of the province.
    It can be seen that religious publications, especially internal 
material publications, have become the emphasis of religious 
regulation; this is precisely the newly formulated regulative measure 
targeting independent Christian house churches that print and produce 
in quantities larger than the publishing regulation order in China.\34\

                             V. CONCLUSION

    From analyzing the content changes in legal clauses of the RRA's of 
Beijing, Zhejiang, and Shanghai before and after their amendments, this 
paper argues that the Chinese government, at the central and local 
levels, has shifted the regulative emphasis on religious activities 
from the singular target of religious activities sites to more 
comprehensive religious undertakings: the system of integrated 
regulation of religious activities, the identity qualification system 
of a religious faculty, the review and approval system of establishing, 
expanding, relocating, or constructing religious activities sites, the 
review and approval of religious publications especially internal 
material publications, the permission mechanisms of cross-regional 
religious activities, the system of integrated regulation of religious 
activities sites, the system of application and approval and preventive 
measures regarding large scale religious activities, the permission 
procedures for large outdoor religious statues, legal liabilities 
especially the formal provision allowing forceful demolition of 
unauthorized religious buildings, etc. All these result in more 
comprehensive, rigid and diverse regulation measures.\35\ Although this 
regulation is merely an ``administrative and regional law,'' the 
promulgation of the unconstitutional National RRA and the amendment or 
establishment of Regional RRA's symbolize the formal establishment of 
the system of ``legally regulating religion'' due to the fact that 
Chinese citizens do not enjoy freedom of assembly, the judicial system 
is not independent, the People's Congress does not have adequate 
representation, and there is no review or litigation system for 
unconstitutionality.

                                ENDNOTES

    \1\ ``Certified religious professionals can preside over religious 
activities in venues of religious activities.''
    \2\ Article 16: ``Religious professionals registered on record of 
this municipality going to other places to preside over religious 
activities, or religious professionals from other locations coming into 
this municipality to preside over religious activities, shall obtain 
prior approval of the municipal religious organizations and report to 
the religious affairs administrative departments of the People's 
Government of the Municipality, or District or County for record 
keeping.'' Also see amendments to Article 26 below.
    \3\ ``Personnel who are not certified and registered on records or 
who have been removed from the status of religious professionals shall 
not preside over religious activities,'' has been changed to 
``personnel who are unqualified to be religious professionals or whose 
credentials do not fit the specifications of the religion shall not 
preside over religious activities.''
    \4\ ``Places of religious activity shall strengthen internal 
management and shall, in accordance with the provisions of relevant 
laws and regulations, establish sound systems of management in the 
areas of personnel, finance, accounting, security, fire control, 
cultural relics protection, health, and epidemic prevention. They shall 
accept guidance, supervision, and inspection from concerned departments 
of the People's Government.''
    \5\ ``Venues of religious activities shall establish sound 
administrative organizations and systems and accept the annual 
inspection from the administrative department of religious affairs of 
the people's government of the local district or county.''
    \6\ ``If a unit or individual intends to remodel or build a new 
structure at a place of religious activity, or intends to establish a 
site for commercial services, to hold an exhibition, or to shoot film 
or television footage, it shall first obtain consent from said place of 
religious activity and from the department of religious affairs of the 
local People's Government at the county level or higher.''
    \7\ Adding a new structure, conversion or extension of buildings, 
establishing a site for commercial services, holding an exhibition, or 
shooting film or television footage within the range of management of a 
place of religious activity must obtain consent from the administrative 
organization of the place, and the Administration of Religious Affairs 
of the Municipality or District and County, and undergo necessary 
procedures at the department concerned.
    \8\ Article 1: The religious group or temple/church which intends 
to organize a large-scale religious event that crosses provincial, 
autonomous region, or directly administered municipality boundaries and 
exceeds the capacity of the place of religious activity, or intends to 
hold a large-scale religious event outside of a place of religious 
activity, shall submit an application to the religious affairs 
department of the People's Government of the province, autonomous 
region, or directly administered municipality in which the religious 
event is to be held at least 30 days prior to the date when the event 
is to be held. The religious affairs department of the provincial, 
autonomous region or directly administered municipality People's 
Government shall make a decision to approve or not to approve within 15 
days of receipt of said application. Article 2: The large-scale 
religious event shall be conducted pursuant to the requirements 
recorded on the notice of approval and without deviation from religious 
ritual. It shall not contravene the provisions of articles 3 and 4 of 
these regulations. The organizing religious group or temple/church 
shall take effective measures to prevent accidents. The departments 
concerned of the township People's Government and county and higher-
level local People's Governments for the area in which the large-scale 
religious event is to be held shall, in accordance with their 
respective official responsibilities, provide management as needed to 
ensure the safety and orderly progress of the large-scale religious 
event.
    \9\ Organizing large-scale religious event shall obtain consent 
from religious groups of the municipality and report to and obtain 
approval from the religious affairs department of the People's 
Government of the Municipality or District or County according to 
relevant regulations of the Municipality, and fulfill relevant 
procedures.
    \10\ ``Buildings and structures used by places of religious 
activity for religious activity and the appurtenant living quarters of 
religious instructors may not be assigned to another party, mortgaged, 
or used as investment in kind.''
    \11\ ``Religious organizations and places of religious activity can 
lease and assign religious real estate or utilize religious real estate 
for other business purposes according to relevant regulations of the 
state and this municipality.''
    \12\ Article 47 has been amended to read: ``violation of provisions 
in Articles 9, 14, 16, 18 and 27 of this Regulation and falls within 
any one of the following situations, shall be annulled or ordered to 
stop activity, or be given a warning, or have illegal earnings seized 
if any, or have unlawful buildings or structures dealt with according 
to relevant laws and regulations, or be inflicted with security 
administrative penalty if any, by the religious affairs department of 
the People's Government of the this municipality or district or count, 
and other departments concerned: (1) Establishment of religious 
academies or schools or holding training classes without authorization; 
(2) Having personnel unqualified for religious faculty or non 
conforming with requirements of the religion to preside over religious 
activities; (3) religious faculty from outside of the region coming to 
this municipality to preside over religious activities or religious 
faculty of this municipality coming to other regions to preside over 
religious activities without obtaining consent from religious groups of 
this municipality and reporting to the religious affairs department of 
the People's Government of the municipality or of district or county 
for record keeping; (4) establishment of place of on religious 
activities without authorization; and (5) conducting evangelization 
outside of places of religious activities, or erecting religious stand 
or statue at public places without authorization.'' Article 48 has been 
amended to read: ``Violation of provisions in Article 36 of this 
Regulation, non-religious organizations or places of non- religious 
activities receiving offerings, donations or other religious 
contributions, shall be ordered by the religious affairs department of 
the People's Government of the municipality or of the district or 
county,; and have unlawful earnings seized if any; and be inflicted 
fines of three times of unlawful earnings.''
    \13\ Article 2 Clause 2: ``The religious affairs mentioned in this 
regulation refer to the social public affairs that exist between 
religion and the state, society, and citizens.''
    \14\ Article 7 ``People's Government at various levels shall 
safeguard the legal rights and interests of religious groups, places of 
religious activities, religious faculty, and religious citizens, hear 
the opinions from religious groups, places of religious activities, 
religious faculty, and religious citizens, coordinate administration of 
religious affairs, and guide religion to be in conformity with the 
socialist society''
    \15\ Article 8 of the amended Shanghai RRA has similar statement.
    \16\ See amended Shanghai RRA Article 6 Clause 4.
    \17\ Amended Zhejiang RRA Article 8 Clause 3.
    \18\ Amended Zhejiang RRA Article 11 Clause 2.
    \19\ Amended Zhejiang RRA Article 19 Clause 1, Clause 2.
    \20\ Clause 1, Clause 2, Clause 3.
    \21\ Amended Zhejiang RRA Article 35. Article 36 Clause 1, Clause 
2.
    \22\ Old Regulation Article 28. This statement may be interpreted 
as meaning citizens cannot carry out personal religious activities in 
their homes.
    \23\ Amended Zhejiang RRA Article 36 Clause 2.
    \24\ Original Zhejiang RRA Article 32. National RRA Article 22 
Clause 1.
    \25\ Amended Zhejiang RRA Article 38 Clause 1, Clause 2, Clause 3.
    \26\ National RRA Article 22 Clause 2.
    \27\ Amended Zhejiang RRA Article 45.
    \28\ National RRA Article 43 Clause 1.
    \29\ Amended Zhejiang RRA Article 46.
    \30\ The previous RRA of Beijing was promulgated July 18, 2002 and 
enforced November 1 the same year.
    \31\ ``Regulations Governing Printing'' (promulgated 19970308, 
enforced 19970501, annulled); ``Regulations Governing Printing (Sate 
Council Order No.15, promulgated and enforced August 2, 2001) 
``Regulations Governing Publication'' (promulgated 19970102, enforced 
19970201, annulled); ``Regulations Governing Publication,'' (enforced 
20020201)
    \32\ ``Regulations Governing Printing'' (Sate Council Order No.315, 
promulgated and enforced August 2, 2001) Article 18 Clause 1: 
``Printing enterprises accepting orders for printing internal material 
publications must verify the presence of the print permit issued by the 
administration of the press of the local people's government at the 
county level or above.'' Clause 2: ``Printing enterprises accepting 
orders for printing internal material publications with religious 
content must verify the presence of the authorization paper from the 
religious affairs administration of the People's Government of the 
province, autonomous region or directly administered municipality and 
the print permit issued by the administration of the press of the 
people's government of the province, autonomous region or directly 
administered municipality.'' Clause 3: ``the administration of the 
press shall decide, within 30 days of receipt of the application for 
printing of internal material publications or for printing internal 
material publications with religious content, on whether it will grant 
the print permit or not, and notify the applicant; No decision beyond 
the period shall be deemed consenting to the application.''
    \33\ For example, ?State Council-Transmitted Report of the General 
Administration of Press and Publication and Other Work Units' Work on 
the Prevention of Abuse in Compiling and Printing of Books and 
Magazines and Strengthening Publishing Management Work?(1980-06-22) 
stipulates that ``printing of calendars and hanging calendars must be 
approved by the competent departments at the provincial level or 
higher.'' ``No printing house may make printing plates for or publish 
books or magazines not authorized by publishing units without approval 
from top-level provincial publishing administration organs.''
    \34\ See National RRA Article 7 Clause 1: ``religious groups may, 
in accordance with relevant state regulations, compile and print 
publications for internal religious use. The publication of publicly 
distributed religious publications shall be subject to regulations 
governing publications.'' Clause 2: ``Published materials that contain 
religious information shall comply with the Regulations Governing 
Publication and shall not contain the following: (1) That which would 
upset harmonious relations between religious citizens and non-religious 
citizens; (2) that which would upset harmony between different 
religions or within a religion; (3) that which discriminates against or 
insults religious citizens or non-religious citizens; (4) that which 
propagates religious extremism; and (5) that which violates the 
principle of religious autonomy and independence.''
    \35\ The case of Cai Zhuohua ``unlawful business operations crime'' 
in 2005, the case of Wang Zaiqing ``unlawful business operations 
crime'' in 2006, and the case of forceful removal of Dangshan church 
building of Xiaoshan, Zhejiang--believers suspected of ``violent 
resistance of law enforcement'' arrested, are all proofs.
                                 ______
                                 

                    Prepared Statement of James Tong

                           november 20, 2006

 The Regulations on Religious Affairs in China: Provincial Regulations 
            and Implementation--November 2004-November 2006

    In the post-Mao reform era, regulations on religion has been a 
balancing act between the Chinese regime's felt need to control 
religious activities on the one hand and to provide religious freedom 
on the other. While religion remains under state management where all 
religious organizations (RO) and religious venues (RV) need to be 
registered, schools of religious affairs approved, foreigners cannot 
proselytize, and the state can order RO's to remove heads of RV it 
deems to have breached its laws, the overall trend has been incremental 
relaxation of the state's restriction on religion, at least since March 
1982, when the Central Committee issued the historic Document 19 on 
religious policy.\1\ In the past two decades since then, the gentler 
and kinder policy enunciated in that document has resulted in widening 
ideological and administrative autonomy of RO's, fewer limitations on 
religious activities and venues, more rigorous protection of religious 
property, increasing latitude for RO's to interact with their overseas 
counterparts, and greater circumscription of the power of government 
agencies to rule of law.

            I. NATIONAL AND PROVINCIAL RELIGIOUS REGULATIONS

    These benign developments are codified in the ``Regulations on 
Religious Affairs'' (hereafter ``Regulations'') promulgated by the 
State Council on November 30, 2004. As the first comprehensive set of 
central government statutes on religion in the reform period, the 
Regulations stipulate clear administrative norms to manage religious 
affairs, place the latter in the system of existing laws in China, and 
introduce provisions for administrative appeal and judicial challenge. 
They replace the existing micro-management system by Religious Affairs 
Bureau's (RAB) toward macro supervision by rule of law through reducing 
the number and type of religious activities that require prior official 
approval, omitting requirements for religious organizations to support 
Communist and state ideology, granting the right of RO's to 
certify its religious personnel, permitting RO's to receive 
contributions from domestic and extra-territorial donors, and 
stipulating more rigorous protection of religious property.
Comparison of national vs. provincial regulations
    Since the promulgation of the ``Regulations'' in November 2004, six 
provincial-level units (hereafter provinces, viz, Beijing, Shanghai, 
Zhejiang, Henan, Shanxi, Hunan) have promulgated new or amended 
religious regulations, efforts for an additional four (Chongqing, 
Hebei, Jiangxi, Liaoning) have also been underway.\2\ The six new 
provincial religious regulations have generally left out the State 
Council Regulations on international and national level policies, 
omitting those that govern religious exchange among the mainland, 
Taiwan, Hong Kong and Macau (Art. 47), those on the selection of the 
Dalai Lama and Catholic bishops (Art. 27), those regulating the 
activities of national level religious organizations (The Three-Self 
Church organizations), national level policies relating to organizing 
pilgrimages for Chinese Muslims (Art. 11), as well as the sending and 
receiving students of religious schools to and from China and overseas 
RO's (Art. 10).
    But provincial omissions go beyond issues of jurisdictional 
authority. Most provincial regulations also omit the State Council 
stipulations that undercut their political and economic power. Of the 
six provinces, only Shanghai echoes the State Council regulation 
stating the right of RO's and individuals to contest the decisions of 
the local RAB's through administrative appeal and judicial challenge in 
courts (Art. 46). Only Beijing legislates against the encroachment of 
the legal rights of RO's, RV's and citizen believers at the pain of 
civil and criminal liability (Art. 39). Provincial omissions of State 
Council regulations are also conspicuous in issues on protecting 
religious property. The State Council stipulation that local land 
management bureaus need to consult the local RAB's in proposed changes 
over the land use of RV's (Art. 31) are omitted in all the provincial 
regulations. The entire section of the SARA document on protecting 
religious property is totally omitted in the Henan and Shanxi 
regulations. Only Zhejiang incorporates the State Council stipulation 
that ``assessed market value'' be used as the criteria for compensating 
religious property removed for urban development and major construction 
projects (Art. 43).
    On the other hand, provincial regulations also include provisions 
protecting religious rights not in the State Council regulations. All 
six provinces legislate the right for believers to practice religions 
in their homes. Shanghai, Zhejiang and Hunan stipulate that religious 
personnel are eligible to participate in the social security program. 
In addition, Shanghai also entitles students of religious schools after 
three years of local service to apply for local residence in the 
metropolis, a much coveted status (Art. 36). Zhejiang requires local 
authorities to consult with religious organizations in determining the 
price of admissions of tourist sites related to religious venues (Art. 
30), while Hunan stipulates occupational discounts for religious 
personnel visiting tourist sites related to their own RO's (Art. 23).
Comparison of old vs. new provincial regulations
    To what extent has the new set of provincial regulations amended 
obsolete provisions and adopted the new regulations of the State 
document? Of the six provinces which have promulgated religious affairs 
regulations since March, 2005, four (Beijing, Shanghai, Zhejiang, 
Hunan) have also an earlier set of regulations with which we can make 
the comparison. The overall trend is one of relaxation of state control 
of religious organizations, regulation by rule of law rather than by 
local religious affairs bureaus, and recognition of the rights of 
religious organizations. Compared to the earlier set of regulations, 
there is not a single provision in these four provinces where new 
limits on religious rights and freedoms are imposed and tighter control 
over religious organizations are decreed.
    First, state power is more circumscribed in the new provincial 
regulations. The powers of the local religious affairs bureau over 
religious organizations are defined as those of ``directing, 
coordinating, managing, and oversight'' in the new Shanghai regulations 
(Art. 6). Two other sets of more interventionist powers (inspecting, 
supervise and urge [ducu]) in the 1995 Shanghai regulations were 
dropped in the definition. The requirement that religious organizations 
need to educate religious personnel and believers in ``patriotism, 
socialism and rule of law'' in Zhejiang's 1997 regulations (Art. 11) 
has been reduced to those of ``patriotism and rule of law'' in its 2006 
version (Art. 14).
    At the same time, some rights of religious organizations have 
received greater 
recognition in the new regulations. Zhejiang province adds a reference 
to the new right of religious organizations to construct large-scale, 
outdoor religious icons in its 2006 statutes (Art. 31) that was not in 
its 1997 version. Those of Hunan province introduces a new provision 
that religious organizations can accept extra-territorial donations 
(Art. 38), that was absent in its old version. Those of Shanghai adds 
the stipulation that infringements on the legal rights of religious 
organizations, venues and believers will receive administrative penalty 
or civil liability (Art. 51).
    There is more positive recognition of the good deeds of religious 
personnel and their social service programs. Hunan adds the provision 
that religious organizations, venues, and personnel that have made 
significant contributions to the national and public interests should 
receive official commendation and encouragement (Art. 7). Instead of 
stating minimally that RO's ``should be allowed to establish social 
services'', the new version in Zhejiang province now states in more 
positive terms that ``they should be encouraged'' to undertake such 
activities (Art. 13).
Two poles of provincial regulations: Shanxi vs. Shanghai
    Of the six sets of provincial regulations, those of Shanxi are more 
restrictive than those of the State Council and other provinces. Shanxi 
is the only province of the six that did not have any set of provincial 
regulations on religious affairs prior to the promulgation of the State 
Council document. It is one of the two provinces (with Henan) that does 
not have a section on protection of religious property. While the RAB's 
of the other five provinces have user-friendly websites listing 
policies and regulations, on-line applications and downloadable forms, 
the Shanxi RAB does not have a website. On the process of certifying 
religious personnel and appointing important positions in religious 
organizations, the State Council stipulates that the power to make 
those decisions rests with the RO, which are required only to notify 
the local RAB's to report to record [bei an] their decisions (Art. 28). 
Thus only post-hoc notification is required, as also minimally 
stipulated in the five other provinces. Shanxi, however, stipulates 
that their certification would be determined by the regulations set by 
the Provincial RAB, and that the RO's need to notify the local RAB's 
before they can issue the certificate. The power of local RO's in 
certifying religious personnel is thus encumbered and there are 
additional regulatory hurdles for the RO's to complete the process. On 
important positions in religious organizations, Shanxi further requires 
that the RO's need to notify the local RAB's before they can appoint or 
remove these positions, while other provinces do not have this 
restriction. On local religious personnel being invited to officiate 
religious functions outside the province, the State Council document 
does not impose any condition, but all provinces stipulate that the 
provincial religious organizations need to approve such invitation. 
Shanxi requires further that local religious organizations need to 
inform the local religious affairs bureau 15 days before the visits 
take place (Art. 19). Neither the State Council nor the five provinces 
stipulate restrictions on religious, cultural, or academic exchange 
activities organized by local religious organizations, but Shanxi 
requires the latter to inform the local RAB's on the time, location, 
and content of the planned activities (Art. 24). For activities 
involving religious organizations outside China, Shanxi is the only 
province that requires a 15-day advance 
notice on the time, location, content, size, participating 
organizations, and description of the extra-territorial religious 
organization (Art. 24). It is also one of only two provinces (with 
Zhejiang) that stipulate rules for cross-county religious activities 
(Arts. 23), and one of three provinces (with Henan and Zhejiang) that 
requires prior permission of the local religious affairs bureau to 
organize training sessions for religious personnel and believers (Art. 
25).
    In contrast, the Shanghai regulations incorporate most provisions 
in the State Council document that protect religious organizations, 
even including some that are unique in the national and provincial 
regulations. It is the only province that provides for administrative 
appeal and judicial challenge against the local religious affairs 
bureau (Art. 59). It is also the only province stipulating protection 
and control areas for religious buildings designated as national or 
important municipal historical buildings (Art. 41) When the national 
and four of the six provincial regulations do not have a section on 
foreign religious relations, Shanghai and Beijing have such sections 
(Chap. 8). Shanghai is the only set of provincial regulations that 
states that foreign nationals can participate in religious activities 
in local religious venues, that the latter can also perform religious 
activities at the request of foreign nationals, that foreign religious 
professionals visiting China in that capacity can preach and give 
homilies in local religious venues, that foreign nationals (not 
necessarily religious personnel) can engage in cultural and academic 
activities with local religious organizations (Arts. 45, 46, 48). It is 
not clear whether State Administration for Religious Affairs (SARA) 
would consider Shanghai or Shanxi be the norm for provincial 
regulations, but of the six, it only lists the Shanghai regulations and 
in full text in its website.

                           II. IMPLEMENTATION

    In implementation, both the central and provincial governments have 
issued supplementary regulations. In the two years since the 
promulgation of the ``Regulations'', SARA has issued the ``Methods for 
approving and registering Religious Venues'' (April, 2005), while six 
provinces have promulgated their own religious affairs regulations as 
noted earlier. Aside from legislative activities, three issues have 
engaged the attention of religious affairs authorities. First, close to 
half of the provinces have proposed local regulations for registering 
RV's, in particular, those on distinguishing the traditional 
established religious venues from other fixed places of worship.\3\ 
Second, both central and provincial agencies have to create new policy 
instruments to implement the ``Regulations''. To standardize the 
procedures for registering RV's, SARA has to design the registration 
certificate and companion forms. To codify the local RAB approval 
procedures, it has also proposed tentative regulations on the 
conditions, process, and bureaucratic time-lines for approving the 
establishment of religious schools, training seminars for the 
``Regulations'', the sending and receiving students of religious 
schools, and the convening of cross-county religious activities.\4\ At 
the province level, religious venues are required to create its 
financial control and accounting system to be eligible for 
registration. In Jiangsu province in 2006 alone, more than 600 person-
classes were organized to train the staff in religious organizations to 
learn such systems. The RAB and the Provincial Finance Bureau of 
Liaoning have jointly developed and tested a pilot project on 
``Accounting System for the Private, Non-Profit Sector'' for adoption 
by RAB's of the 
entire province.\5\
    Third, several central and provincial agencies have adopted 
measures to protect the economic interests of the religious 
communities. Shanghai is working on its draft regulation on ``Methods 
for the participation of religious personnel in social security 
programs'', while Jiangsu has produced its ``Opinions on the living 
standards and social security of religious personnel''. Chongqing 
Municipality has reportedly resolved the problem of social security for 
religious personnel. Beyond social security, several State Council 
ministries have resolved to provide half-fare for students of religious 
schools for home visits during the Chinese New Year, and to offer 
discount admissions for religious personnel at religious tourist 
sites.\6\ How two provinces managed the problem of religious property 
will be discussed in the following section on Challenges.
Increasing autonomy in religious education
    In addition, religious organizations have reported increasing 
autonomy in religious education. The Religious Affairs Regulations have 
legitimized the process of Chinese religious organizations sending 
religious students for training abroad, a process that used to be done 
covertly. For the first time, the Protestant Church 
organized its own nation-wide examination, selecting over 10 religious 
students from more than 30 candidates to be trained overseas in 2006, 
while the Catholic Church also chose its own religious students by 
interviewing for overseas training. Both Christian churches report that 
SARA had no role in the selection process, and only provided assistance 
to get their passports. In the 2006 academic year, there are around 300 
Catholic priests, nuns, and seminarians from China enrolled in 
religious studies programs in the Philippines, Korea, Germany, Italy, 
Belgium and the United States. Conversely, both the Protestant and 
Catholic seminaries have invited foreign theologians to lecture in 
their institutions. Also in the current academic year, the Protestant 
Nanjing Seminary has theology faculty visiting from Germany (2), Canada 
(2), the United States (1), and Finland (1); while Catholic seminaries 
have hosted over 20 visiting theologians from the United States, 
Germany, Korea, Spain, Ireland, Malta and Thailand. At least the 
Catholic Church reports that there was no prior screening by SARA, and 
neither the national Patriotic Church nor RAB sent representatives to 
observe the classes. At a more institutionalized level, the Protestant 
National Seminary in Nanjing has established a program of pastoral 
counseling with the Fuller Seminary of Pasadena, California. A related 
development is the substantial support the central and local 
governments provided to the Christian churches in constructing their 
seminaries. The Protestant National Seminary in Nanjing has received a 
new land grant from the Jiangsu provincial government for its new 
seminary that can house 1,000 religious students. Inaugurated in 
September, 2006, the new Catholic Seminary at the Daxing County in the 
outskirts of Beijing is a four building campus with 200,000 sq. ft. of 
floor space constructed with a land grant of 12 acres and monetary gift 
of Y73 million from the Beijing municipality.
    In contrast to the Maoist policy of restricting religious 
activities to worship inside religious venues, the Christian churches 
are not only allowed but encouraged to undertake social services, as 
stated in the Zhejiang regulations. Both the Protestant and Catholic 
churches have revived their traditional charitable works in 
establishing and operating orphanages, homes for the elderly, medical 
clinics and kindergartens. Presently, the Catholics manage 22 
kindergartens, 20 orphanages, 10 homes for the aged, 4 hospitals, 174 
health clinics, and co-managed 2 leprosy institutions. In addition to 
operating 150 health clinics and close to 100 homes for the elderly, 
the Protestants have been managing a thriving network of YMCA's in 
Beijing, Tianjin, Hangzhou, Nanjing, Guangzhou, Chengdu and Wuhan 
offering English, computer classes and exercise facilities, some of 
which have been in operation for over 20 years. While religious 
organizations are still not permitted to 
establish their own elementary to graduate schools, the Protestant 
church has established vocational schools, and a boarding school for 
Autism in Qingdao that uses the Christian Bible as part of the official 
curriculum. Both Protestant and Catholic educational institutions 
outside China have established joint partnerships with China's leading 
colleges. A consortium of Jesuit Business Schools has a joint program 
with the Guanghua School of Management at Beijing University for many 
years. In September, 2005, the Baptist University of Hong Kong and the 
Beijing Normal University inaugurated an International College in its 
Zhuhai campus that enrolls both Chinese and Hong Kong students. Unlike 
all other colleges in China, the International College does not have 
organizations of the Chinese Communist Party, and political education 
is not a required subject.\7\

                            III. CHALLENGES

Central vs. local authority
    As evident in the substantial variations of provincial regulations, 
the first challenge to the new regulatory regime for religion is one of 
local compliance, where local RAB cadres may be unwilling or unable to 
implement the new regulations. The issue is more than simply local 
active opposition or passive resistance to central policy objectives. 
In the constitutional framework of China, provincial and municipal 
legislatures are vested with legislative powers to enact local laws and 
regulations, provided these are not in contradiction to the state 
constitution, state laws and administrative regulations.\8\ In the 
realm of religious affairs, SARA, as a central government agency, has 
jurisdiction over national and international religious policy, and 
manages the national-level religious organizations. Local religious 
affairs, including the registration of religious organizations and 
venues, falls within the jurisdiction of the local RAB's. As 
administrative law promulgated by the State Council, the Religious 
Affairs Regulations is more authoritative than provincial regulations 
in China's hierarchy of laws when one contradicts the other,\9\ but 
much of the variations noted earlier do not pertain to direct statutory 
conflict. Shanxi and Henan are not breaching China's Legislative Law if 
their religious regulations do not stipulate the ``Regulations'' 
protection of religious property, as are all six provinces if they do 
not include the provision for administrative appeal and judicial 
challenge in their regulations. When cases arise, religious 
organizations can still base their legal claims on the State Council 
regulations. The absence of these provisions in provincial regulations 
does suggest that local authorities maybe predisposed to safeguard 
their own power and interest when these conflict with those of 
religious organizations that the ``Regulations'' aim to protect.

Bureaucratic conflict
    Second, religious policy in China is no longer only an issue 
between the RAB's and the RO's, but has become increasingly entangled 
in a complicated bureaucratic web at both the central and local levels 
where benefits and burdens have to be bargained and turf wars fought. 
To illustrate the need for multi-agency coordination, the training 
seminar on ``Regulations'', convened in Beijing in late January, 2005 
for religious affairs cadres, was jointly organized by the United Front 
Department, the National Public Administration College, the 
Organizational Department, the Legal Affairs Office of the State 
Council and SARA,\10\ while the five regional seminars were organized 
by the last three agencies.\11\ The policy to provide half-fare for 
religious students in home visit train-rides during the Chinese New 
Year was negotiated among SARA, the Ministry of Railway and the 
Ministry of Education. The notice to offer discount admission for 
religious personnel at religious tourist sites was not issued by SARA, 
but by the State Development and Reform Commission.\12\ As will be seen 
in the paragraph that follows, bureaucratic warfare among RAB and other 
local government agencies were even more vicious in cases involving 
religious properties.

Protection of religious property
    Third, the challenge in protecting religious property involves not 
only RAB's and RO's but also local government agencies with strong 
vested economic interests. Religious revival combined with growing 
affluence has increased tourism and temple traffic, while the new 
authorization for religious venues to receive donations has made 
temples a lucrative source of revenue. At the same time, urban 
development has aggravated the need to relocate temples and churches, 
while the red-hot property market has attracted predators to covet 
religious real-estate. The problem is complicated by three decades of 
dogmatic Communist rule which legitimized the seizure of religious 
property for government use, when de facto occupation trumped de jure 
ownership. For many religious shrines, the question of property rights 
is further exacerbated by investments of local park services and 
tourist bureaus to build on and renovate these properties. It is thus 
difficult to sort out ownership, management and user rights, as well as 
the equity shares of the religious organizations and their new 
government and non-government tenants.
    Recent efforts to resolve conflicts over religious property have 
been reported in Guangdong province, where three cases of ownership of 
religious property languishing for more than two decades have been 
settled in favor of the RO's.\13\ Jiangxi Province has also reportedly 
resolved the problems of five prominent Daoist and Buddhist temples, in 
a two-pronged solution on the ownership, management, and financial 
problems. For ownership and management, the local township, cultural 
relics and tourist departments were ordered to return the premises to 
the local religious organizations. In terms of financial revenue from 
tourist admissions, the local government is allowed to collect all gate 
receipts until its total investments are 
repaid, after which these receipts become the revenue of religious 
organizations. Religious organizations will collect all religious 
donations. In cases where local government agencies have currently 
recovered all its investments, they are permitted to wean their 
dependence on temple gate receipts gradually, beginning with 50 percent 
share in the first year of the arrangement, decreasing their annual 
shares until the religious organizations will get the total amount.\14\
    In one of the three Guangdong cases, relocation of religious 
property presents a special knotty problem. The case involves the two 
hundred year old Fusheng Convent in Guangzhou which was ordered by the 
city's urban development, state land administration, and housing 
agencies to be demolished for urban redevelopment. Contrary to what is 
stipulated in the ``Regulations'', the municipal agencies offered only 
to replace the land in a site where real-estate prices were much lower. 
As plaintiff, the local Buddhist association solicited the assistance 
of the municipal RAB, which insisted that the new religious regulations 
stipulate that the developer should also pay for the reconstruction 
cost of the convent in a land parcel of equivalent size of the RO's 
choice. After protracted negotiations, the developer finally agreed to 
the terms of the local RAB and the Buddhist Association.\15\
    For both local RAB and religious organizations, the new Religious 
Affairs Regulations present a great challenge in implementation. For 
RAB, the task of registering the RV's, in addition to the many new 
requests for permission to be processed according to new criteria, pose 
a new set of administrative burden for the local bureaucracy. To meet 
these new tasks, the RAB's of nine provinces (Guangdong, Jiangsu, 
Guizhou, Shandong, Hubei, Chongqing, Jiangxi, Hunan, Fujian) receive 
higher budget and staff personnel allocations. To illustrate the new 
work load, Jiangsu established a new office of policy and regulations 
in each of its 13 municipal RAB's, and created the position of office 
assistants in 1,200 out of 1,400 townships, villages and housing 
blocks, in effect quadrupling the religious affairs agents from under 
500 to close to 2,000 in these basic units. Shanghai seconded 350 local 
cadres to receive basic seminar training on the new religious 
regulations and to become certified religious affairs agents.\16\

                             IV. CONCLUSION

    The ``Regulations on Religious Affairs'' (November 30, 2004) is a 
major landmark in religious policy in China in the reform period. It is 
most comprehensive in scope among the preceding set of national-level 
government and party documents on religious policy issued in 1982, 
1985, 1991, and 1994.\17\ It integrates the reform features in 
provincial religious regulations in the past decade and broadens the 
scope of liberalization. In terms of specific stipulations, the 
Regulations provide, for the first time, the rights of the religious 
organizations to: (1) accept financial contributions from 
extraterritorial organizations or individuals; (2) produce and print 
religious publications for internal distribution; and (3) construct 
large, outdoor religious icons. Going beyond specific stipulations, the 
Regulations move toward a new regulatory framework that sheds much of 
the requirements for prior approval by the local Religious Affairs 
Bureau governing activities on religious venues, religious personnel, 
and contact with extraterritorial religious organizations. Instead, the 
new regulatory framework is built on a much softer set of requirements 
for religious organizations and venues to inform and report to local 
Religious Affairs Bureaus, and for the latter to supervise and oversee, 
rather than to approve and rule on specific religious activities.
    As shown in the foregoing pages, there has been substantial 
progress in enacting supplementary regulations at both the central and 
provincial government levels. Progress has been more notable at the 
central government level, where national religious organizations are 
given land and monetary grants to construct national seminaries, 
authorized to select religious students to receive theological training 
abroad, inviting foreign theologians to lecture at Chinese seminaries. 
Religious organizations are also permitted to re-establish their 
traditional works of charity like orphanages, homes for the aged, 
medical clinics and YMCA's, as well as venture into new apostolates 
like caring for autism children. With no Communist Party organized 
presence or required political education courses, the International 
College in Zhuhai represents a breakthrough in joint partnerships 
between Chinese universities and an outside Christian college. The 
picture is less clear at the local level, where local officials have 
jurisdiction over local religious affairs, and where both more 
authoritarian and liberal provincial regulations have been promulgated.
    It is too early to decipher the magnitude of the impact of the new 
Regulations. But the direction is clear. In both statutory enactment as 
well as policy implementation, and at both the central and provincial 
levels, the overall trend has been one of the increasing institutional 
autonomy of religious organizations, greater protection of religious 
organizations, venues and personnel. Even for the more authoritarian 
provinces, no retrogression toward greater restriction on religious 
freedom is evident either in the legislative stipulations or policy 
enforcement of its new provincial regulations. To date, a great 
majority of provinces has not enacted new religious affairs 
regulations, but for the six that have, they promise an even more 
benign milieu for religion in China.

                                ENDNOTES

    * I am indebted to the following who have contributed information 
for this statement: Dr. Danny Yu of the Christian Leadership Exchange 
of Arcadia, California, Mr. Liu Bainian of the China Patriotic Catholic 
Association, Rev. Deng Fuchuan of the Nanjing National Seminary, the 
Policy and Regulations Department of the State Administration of 
Religious Affairs of the People's Republic of China, and the Holy 
Spirit Study Center of the Catholic Diocese of Hong Kong.

    \1\ Central Committee of the Chinese Communist Party, ``The Basic 
Viewpoint and Policy on the Religious Question during our country's 
socialist period,'' Document 19 (March 31, 1982), in Mickey Spiegal and 
James Tong eds., Chinese Law and Government (March-April, 2000), pp. 
17-34.
    \2\ ``Xin Fagui, Xin Jinzhan--`Zongjiao shiwu tiaoli' shisi 
yinianban zongshu'' [New Regulations, New Progress--General report on 
the implementation of the ``Religious Affairs Regulations'' after one 
and a half years], SARA, unpublished memo, circa June 2006 (hereafter 
SARA, 2006), p. 2.
    \3\ SARA (2006), p. 2.
    \4\ SARA (2006), p. 2.
    \5\ Ibid., p. 6.
    \6\ Ibid., pp. 2-3.
    \7\ Personal communications with the Executive Vice President of 
the International College, August, 2005.
    \8\ ``The Legislative Law of the People's Republic of China'', Art. 
33.
    \9\ Ibid., Art. 79.
    \10\ Xinhua, Beijing, January 26, 2005.
    \11\ Zhongshan ribao, January 14, 2005; Shaanxi ribao, January 30, 
2005.
    \12\ SARA (2006), pp. 2-3.
    \13\ SARA (2006), p. 3.
    \14\ SARA (2006), p. 5.
    \15\ SARA (2006), p. 10-12.
    \16\ SARA (2006), pp. 6-7.
    \17\ James Tong, ``A New Framework for State-Religious Relations: 
the Regulations on Religious Affairs in China, March 2005'', presented 
at the Forum on China's Regulations of Religious Affairs, Fuller 
Seminary, Pasadena, California, March 2, 2005, p. 19.

                                 <all>

</pre></body></html>
